<html>
<title> - ECONOMIC OPPORTUNITIES FROM LOCAL AGRICULTURAL MARKETS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


         ECONOMIC OPPORTUNITIES FROM LOCAL AGRICULTURAL MARKETS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               BIOTECHNOLOGY, HORTICULTURE, AND RESEARCH

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

                           FEBRUARY 11, 2020
                               __________

                           Serial No. 116-30
                           
                           
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                                                                           
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
41-365 PDF                WASHINGTON : 2020   





                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JOSH HARDER, California              RALPH LEE ABRAHAM, Louisiana
KIM SCHRIER, Washington              TRENT KELLY, Mississippi
CHELLIE PINGREE, Maine               JAMES COMER, Kentucky
CHERI BUSTOS, Illinois               ROGER W. MARSHALL, Kansas
SEAN PATRICK MALONEY, New York       DON BACON, Nebraska
SALUD O. CARBAJAL, California        NEAL P. DUNN, Florida
AL LAWSON, Jr., Florida              DUSTY JOHNSON, South Dakota
TOM O'HALLERAN, Arizona              JAMES R. BAIRD, Indiana
JIMMY PANETTA, California            JIM HAGEDORN, Minnesota
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa
----

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

       Subcommittee on Biotechnology, Horticulture, and Research

               STACEY E. PLASKETT, Virgin Islands, Chair

ANTONIO DELGADO, New York            NEAL P. DUNN, Florida Ranking 
TJ COX, California                   Minority Member
JOSH HARDER, California              GLENN THOMPSON, Pennsylvania
ANTHONY BRINDISI, New York           VICKY HARTZLER, Missouri
KIM SCHRIER, Washington              DOUG LaMALFA, California
CHELLIE PINGREE, Maine               RODNEY DAVIS, Illinois
SALUD O. CARBAJAL, California        TED S. YOHO, Florida
JIMMY PANETTA, California            MIKE BOST, Illinois
SEAN PATRICK MALONEY, New York       JAMES COMER, Kentucky
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
----

             Brandon Honeycutt, Subcommittee Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................    31
Craig, Hon. Angie, a Representative in Congress from Minnesota, 
  opening statement..............................................     1
Dunn, Hon. Neal P., a Representative in Congress from Florida, 
  opening statement..............................................     2
Plaskett, Hon. Stacey E., a Delegate in Congress from Virgin 
  Islands, opening statement.....................................    29
    Prepared statement...........................................     3

                               Witnesses

Sibilly-Brown, Sommer, Founder and Executive Director, Virgin 
  Islands Good Food Coalition, Kingshill, St. Croix, VI..........     5
    Prepared statement...........................................     7
Zeman, Kathy, Executive Director, Minnesota Farmers' Market 
  Association, Nerstrand, MN.....................................     9
    Prepared statement...........................................    11
Oliver, Clay, Owner, Oliver Oil Company LLC, Pitts, GA...........    15
    Prepared statement...........................................    17
Erickson, Bret, Senior Vice President for Business Affairs, J&D 
  Produce Inc., Edinburg, TX.....................................    19
    Prepared statement...........................................    20

 
         ECONOMIC OPPORTUNITIES FROM LOCAL AGRICULTURAL MARKETS

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2020

                  House of Representatives,
 Subcommittee on Biotechnology, Horticulture, and Research,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:01 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Stacey 
E. Plaskett [Chair of the Subcommittee] presiding.
    Members present: Representatives Plaskett, Delgado, Cox, 
Harder, Schrier, Pingree, Carbajal, Panetta, Craig, Dunn, 
LaMalfa, Davis, Bost, and Conaway (ex officio).
    Staff present: Malikha Daniels, Brandon Honeycutt, Prescott 
Martin III, Troy Phillips, Patricia Straughn, Jeremy Witte, 
Paul Lewis, Dana Sandman, and Justina Graff.

  OPENING STATEMENT OF HON. ANGIE CRAIG, A REPRESENTATIVE IN 
                    CONGRESS FROM MINNESOTA

    Ms. Craig [presiding.] This hearing of the Subcommittee on 
Biotechnology, Horticulture, and Research entitled, Economic 
Opportunities from Local Agriculture Markets, will come to 
order.
    Good morning, and thank you for joining us as we discuss 
how farmers and ranchers across the country are capitalizing 
off local agricultural markets. Today's farmers and ranchers 
have had an incredibly challenging job. We expect these 
individuals to feed a growing world, be good stewards of the 
land, and navigate an increasingly complex global economy. 
While these ideals are admirable, farmers and ranchers 
ultimately cannot achieve these goals if their operations are 
not financially viable to support themselves and their 
families. Simply put, the economics must work for the other 
ends to be realized.
    This challenge has been increasingly difficult in recent 
years as the farm economy continues to lag. Despite this 
downturn, farmers and ranchers have seen a surge in consumer 
interest for foods that are produced locally. As consumers 
become more connected to the story of their food, we see 
producers across this nation seeking out new business 
opportunities directly with shoppers to increase their margins 
and keep their operations viable.
    In the 2017 Census of Agriculture, USDA's National 
Agricultural Statistics Service reported that over 159,000 
farmers and ranchers were selling directly to consumers. The 
value of their products sold either directly to consumers or 
into local retail markets was over $11.8 billion, representing 
three percent of total food sales. As consumer demand continues 
to grow, these sales from local markets present a strong 
economic opportunity for our farmers and ranchers.
    Within the horticulture title of the 2018 Farm Bill is a 
program called the Local Agriculture Market Program, or LAMP. 
This program combined two existing initiatives, the Farmers' 
Market and Local Food Promotion Program and the Value-Added 
Producer Grant, into one program with a collective focus on 
helping farmers and ranchers take advantage of local markets. 
Projects funded by LAMP aim to better connect farmers and 
ranchers to consumers, and to help producers increase the 
margins they receive on their products. This Committee 
reauthorized these programs in the 2018 Farm Bill, and I am 
glad to see LAMP receive $50 million in annual mandatory 
funding over the life of our legislation. This step forward 
represents a strong investment by Congress and a commitment to 
support the development of these local agricultural markets.
    Moving forward, it is my goal to ensure that the recent 
restructuring of the LAMP Program contributes to and does not 
detract from the underlying goals of the previously separate 
Value-Added Producer Grants Program, and the Farmers' Market 
and Local Food Promotion Program. Each program supports an 
important mission, and I will be watching USDA's implementation 
to make sure these programs continue to operate as Congress 
intended.
    During this Subcommittee hearing, we will receive testimony 
from farmers and advocates from across the country who are 
working to support successful local agricultural markets. I 
look forward to hearing their perspectives and to learn how we 
can better support market opportunities for farmers and 
ranchers in our districts.
    In consultation with the Ranking Member and pursuant to 
Rule XI(e), I want to make Members of the Subcommittee aware 
that other Members of the full Committee may join us today, 
such as myself.
    I recognize Ranking Member Dunn for his opening statement.

  OPENING STATEMENT OF HON. NEAL P. DUNN, A REPRESENTATIVE IN 
                     CONGRESS FROM FLORIDA

    Mr. Dunn. Thank you very much, Madam Chair.
    Good morning. We meet again as our farmers and ranchers 
back home continue to face tough times. Whether it is a new 
pest or disease process or shortage in good labor, dwindling 
list of crop protection tools, the list goes on and on. An 
economy that is booming for so many others is still not 
providing much needed relief for many people in the 
agricultural industry, and despite these circumstances, maybe 
even due to these circumstances, many farmers and ranchers are 
engaging in some innovative strategies to develop new marketing 
channels to get their products into the hands of the consumers.
    Today's hearing is a good opportunity to discuss both the 
merits and the challenges to development of local and regional 
agricultural systems.
    Today's American consumer tends to care more about where 
their food is sourced and how it is produced. Strengthening 
ties between producers and consumers is a worthy goal, 
especially since the average individual in America is at least 
three generations removed from production agriculture. Direct 
marketing channels are a great opportunity for farmers and 
ranchers to foster a relationship with their consumers, 
establishing trust that benefits the industry as a whole.
    Local agriculture systems have their challenges. In order 
to succeed, many farmers and ranchers need to market a larger 
volume of product than their local markets can handle. They may 
also be located far away from their consumer population 
interested in purchasing their product. Or, they may be growing 
a commodity that is better suited for further processing by 
food and industrial manufacturers not located nearby. This 
challenge extends to the consumer. If all food were locally 
sourced, consumers would not have the same access to a wide 
range of fruits and vegetables year-round. And consumers would 
also be subject to a wide range of ups and downs in prices that 
result from sourcing from limited local areas.
    Despite these challenges, local and regional agricultural 
systems continue to be one of many opportunities for farmers 
and ranchers to increase the value of their product and satisfy 
the American consumer, and I look forward to hearing from our 
witnesses today, and I sincerely appreciate you taking the time 
to share your experience with us.
    Thank you very much, Madam Chair. I yield back.
    Ms. Craig. Thank you so much.
    The chair would request that other Members submit their 
opening statements for the record so the witnesses may begin 
their testimony, and to ensure that there is ample time for 
questions.
    [The prepared statement of Ms. Plaskett follows:]

 Prepared Statement of Hon. Stacey E. Plaskett, a Delegate in Congress 
                          from Virgin Islands
    Good morning, and thank you for joining us as we discuss how 
farmers and ranchers across the country are capitalizing off local 
agricultural markets.
    Today's farmers and ranchers have an incredibly challenging job. We 
expect these individuals to feed a growing world, be good stewards of 
the land, and navigate an increasingly complex global economy. While 
these ideals are admirable, farmers and ranchers ultimately cannot 
achieve these goals if their operations are not financially viable to 
support themselves and their families. Simply put, the economics must 
work for the other ends to be realized.
    This challenge has been increasingly difficult in recent years as 
the farm economy continues to lag. Despite this downturn, farmers and 
ranchers have seen a surge in consumer interest for foods that are 
produced locally. As consumers become more connected to the story of 
their food, we see producers across this nation seeking out new 
business opportunities directly with shoppers to increase their margins 
and keep their operations viable.
    In the 2017 Census of Agriculture, USDA's National Agricultural 
Statistics Service reported that over 159,000 farmers and ranchers were 
selling directly to consumers. The value of their products sold, either 
directly to consumers or into local retail markets, was over $11.8 
billion, representing three percent of total food sales. As consumer 
demand continues to grow, these sales from local markets present a 
strong economic opportunity for our farmers and ranchers.
    This story is true in my district of the U.S. Virgins Islands. 
Farmers in the territory are working to recover from back to back 
natural disasters following Hurricanes Maria and Irma, so they are 
seeking out any and all opportunities to increase their profits and 
grow their operations.
    In a hearing last year, this Subcommittee learned about Ridge to 
Reef Farm on the Island of St. Croix. Despite being impacted by 
multiple natural disasters, the territory's only organic farm has been 
able to rebuild itself through local market opportunities such as a 
Community-Supported Agriculture program, a farm stand, multiple 
farmers' markets, and agritourism experiences. If other farming 
operations in the Virgin Islands follow suit, I believe the territory's 
farmers and ranchers can work to meet the demand of their communities, 
decrease our overall dependency on expensive imports, and foster 
innovative partnerships with local restaurants and our thriving tourism 
industry. The economic potential exists, but my producers need 
resources and technical assistance to successfully make these business 
decisions.
    Within the horticulture title of the 2018 Farm Bill is a program 
called the Local Agriculture Market Program, or LAMP. This program 
combined two existing initiatives--the Farmers' Market and Local Food 
Promotion Program and the Value-Added Producer Grants--into one program 
with a collective focus on helping farmers and ranchers take advantage 
of local markets. Projects funded by LAMP aim to better connect farmers 
and ranchers to consumers and to help producers increase the margins 
they receive on their products.
    I supported the reauthorization of these programs in the 2018 Farm 
Bill, and I was glad to see LAMP receive $50 million in annual 
mandatory funding over the life of our legislation. This step forward 
represents a strong investment by Congress and a commitment to support 
the development of these local agricultural markets.
    Moving forward, it is my goal to ensure that the recent 
restructuring of the LAMP programs contributes to, and does not detract 
from, the underlying goals of the previously separate Value-Added 
Producer Grants Program and the Farmers' Market and Local Food 
Promotion Program. Each program supports an important mission, and I 
will be watching USDA's implementation to make sure these programs 
continue to operate as Congress intended.
    During this Subcommittee hearing, we will receive testimony from 
farmers and advocates from across the country who are working to 
support successful local agriculture markets. I look forward to hearing 
their perspectives, and to learn how we can better support market 
opportunities for farmers and ranchers in our districts.
    Now, I'd like to recognize the distinguished Ranking Member, Mr. 
Dunn of Florida, for any opening remarks he would like to make.

    Ms. Craig. With that, I would like to welcome each of our 
witnesses. Thank you so much for being here today.
    At this time, I would like to introduce our first witness, 
Ms. Sommer Sibilly-Brown, the founder and Executive Director of 
the Virgin Islands Good Food Coalition. Ms. Sibilly-Brown's 
organization was founded in 2012, and is working across the 
territory to better connect farmers, businesses, and consumers 
to healthy food options and economic opportunities.
    I would now like to recognize myself to make an 
introduction as well of Minnesota's second witness here. It is 
my pleasure to introduce my constituent, Kathy Zeman, the 
Executive Director of the Minnesota Farmers' Market 
Association. Kathy started working with MFMA in September 2012. 
She is also the owner of Simple Harvest Farm Organics in 
Nerstrand, Minnesota, and is an occasional vendor at Riverwalk 
Market Fair in Northfield. Kathy first became aware of MFMA in 
2009 when she was part of the effort to create Riverwalk Market 
Fair and attended an MFMA conference in Owatonna, where she was 
impressed by the speakers and resources offered at that event. 
Kathy has spent most of her career in agriculture and brings 
those connections to MFMA, which has helped us build stronger 
collaborations with diverse groups and has paved the way for 
successful public policy efforts. Kathy's favorite vegetable is 
any green leafy vegetable, but by far, her favorite all-time 
food is milk. Welcome to you, Kathy, and thank you so much for 
being here today.
    Our third witness is Mr. Clay Oliver, the owner of Oliver 
Oil Company from Pitts, Georgia. In addition to his time spent 
on a multi-generational farm, Mr. Oliver's business makes cold-
pressed artisan cooking oils from locally produced sunflowers, 
pecans, and peanuts.
    The fourth and final witness is Mr. Bret Erickson, the 
Senior Vice President of Business Affairs at J&D Produce, Inc., 
from Edinburg, Texas. Prior to his current role, Mr. Erickson 
served as President and CEO of the Texas International Produce 
Association.
    Thank you so much to the four of you for being here today.
    We will now proceed to hearing from our witnesses. Each of 
you will have 5 minutes to present testimony. When the light 
turns yellow, that indicates that there is 1 minute left to 
complete your testimony.
    Ms. Sibilly-Brown, please begin when you are ready.

        STATEMENT OF SOMMER SIBILLY-BROWN, FOUNDER AND 
         EXECUTIVE DIRECTOR, VIRGIN ISLANDS GOOD FOOD 
              COALITION, KINGSHILL, ST. CROIX, VI

    Ms. Sibilly-Brown. Thank you, Chair Plaskett, Ranking 
Member Dunn, and Congresswoman Craig, for the opportunity to 
testify regarding issues impacting the success and resilience 
of local and regional food systems.
    I am Sommer Sibilly-Brown, the founder and Executive 
Director of Virgin Islands Good Food Coalition. I am not a 
farmer, but I am tied to agriculture and I am tied to food. We 
all are.
    The Virgin Islands agricultural community is comprised of 
approximately 300 producers across four islands, ten percent of 
which are full-time producers whose farm size ranges from \1/4\ 
of an acre to 10 acres. The other 90 percent are part-time 
producers and home-based producers. The ratio of full-time to 
part-time producers that support our local food system, coupled 
with a 99 percent import rate, creates a unique dynamic. 
Nevertheless, when it comes to agriculture, we are a community 
of strong will, despite our fragile food system.
    The barriers that I will address in this testimony are the 
ones that I see pertinent to the efficient development of an 
effective local and regional food system: fiscal and financial 
resource allocations, community infrastructure, and social 
capacity. The Virgin Islands Good Food Coalition has identified 
funding and resource allocation as a major barrier. There has 
been no significant investment in building up our food system. 
We do not have the same access and assets as other parts of the 
nation. Our territory is not equipped through local government 
and small business to do the type of investment seen in the 
mainland or in large metropolitan locations.
    While the United States Department of Agriculture has a 
progressive grant-making portfolio and a competitive grant 
structure with programmatic criteria that provides equal 
funding opportunities, this is not done equitably. The current 
USDA grant structure assumes that every applicant has capacity 
staffing, partnership, technical skills, and community support 
to write such proposals. For example, the Value-Added Producer 
Grant requires a non-Federal funding match that is at least 
equal to the amount of the Federal funding requested. The 
Farmers' Market Promotion Program and Local Food Promotion 
Program Grants require 25 percent match. Therefore, communities 
like the U.S. Virgin Islands with the least assets, a shortage 
of technical expertise, limited resources for matching 
opportunities, and a higher level of need often go under-
served.
    Another barrier for us to increase production, reduce the 
import rate, and create a healthy and local regional food 
system are the infrastructure issues. Currently in the 
territory's model, the farming community is primarily dependent 
on services provided through the Virgin Islands Department of 
Agriculture. Through qualitative interviews and post-hurricane 
community food assessments, farmers echo their frustration 
around access to water and land preparations. These services 
are primarily conducted by our local Department of Agriculture. 
This is sad, realizing that farmers in the contiguous United 
States have much different protocols for preparing and managing 
their land. There are different technical trainings, 
provisions, and access to capital that exist on the mainland 
than those that are afforded in the territory, leaving a stark 
difference in land control and preparation. We need the 
opportunity to engage in capacity planning for our supply 
chain. This could include assisting producers in determining 
production scale and market demands. There is a great 
opportunity for producers to supply wholesale local food to 
hotels and cruise line markets. There are opportunities to 
create a plethora of value-added food-related businesses that 
can fill gaps in the supply chain. However, we also need the 
opportunities to train persons in the community to lead these 
entrepreneurial endeavors, which sheds light on another issue: 
lack of access to training and certifications that could 
bolster our food system.
    The final barrier I would like to highlight today is social 
capacity. When considering our regional relationships and what 
would be most beneficial, I would like to look at the USDA 
structure for assigning territories and regions. Our state 
Rural Development office is in Gainesville, Florida. Our local 
area office is in the Virgin Islands. But in farm-to-school, we 
are paired with the Mid-Atlantic region. The regions are not 
consistent. We are not similar regarding scale, environment, 
transportation needs, government structure, or even culture. 
The territory would greatly benefit from opportunities to be 
paired with other islands and territories to learn from their 
lessons.
    Our territory is comprised of socially-disadvantaged 
populations; however, we are still asked to deliver and 
withstand the same procedures as the mainland. I would be 
remiss if I did not use this opportunity to state the need to 
excavate the deep social, cultural, and structural barriers 
impacting the local and regional food system of the territory, 
one of which includes the policies at play within the USDA farm 
bill.
    Once again, I would like to thank the Subcommittee for 
giving me the opportunity to testify before you today on the 
needs of advocates like myself when it comes to resiliency of 
our local and regional food system.
    [The prepared statement of Ms. Sibilly-Brown follows:]

   Prepared Statement of Sommer Sibilly-Brown, Founder and Executive 
 Director, Virgin Islands Good Food Coalition, Kingshill, St. Croix, VI
Issues Impacting the Success and Resiliency of Local and Regional Food 
        Systems
    Thank you, Chair Plaskett and Ranking Member Dunn, for the 
opportunity to testify before the Subcommittee on Biotechnology, 
Horticulture, and Research regarding issues impacting the Success and 
Resilience of local and regional food systems.
    I am Sommer Sibilly-Brown, Founder and Executive Director of Virgin 
Islands Good Food Coalition, Incorporated (VI[GF]C). VIGFC is a 
community based domestic nonprofit organization licensed in the Virgin 
Islands of the United States of America. I am not a farmer, but I am 
tied to agriculture and I am tied to food. We all are.
    The Virgin Islands as a territory has a vibrant and interesting 
history with food and agriculture. We have a capable, dedicated 
agricultural community comprised of approximately three hundred 
producers across four islands. Ten percent of which are full time 
producers whose farm size ranges from \1/4\ acre to 10 acres. The other 
ninety percent are part-time and home-based producers. The ratio of 
full-time to part-time producers that support our local food system 
coupled with a 99 percent import rate creates a unique dynamic. 
Nevertheless, when it comes to agriculture, we are a community of 
strong will despite a fragile food system.
    The devastating impacts of Hurricanes Irma and Maria in 2017 
accentuated our fragility, which increased interest in local and 
regional food systems across the Territory. The increased frequency and 
intensity of significant environmental events (hurricanes, droughts, 
floods, etc.) have exacerbated our community and resulted in the need 
to prioritize the creation of a healthy, resilient food system.
    I would like to state on the record that while the United States 
Department of Agriculture has a comprehensive approach to support 
agriculture within the contiguous United States through resources, 
technical assistance and grants, the territory lacks capacity and 
resources to apply or receive many of the support systems provided, and 
thus, has seen no forward movement in our agricultural programming. It 
is my experience that content, and context are not the same, we can't 
take a cookie cutter approach to building place-based systems. Though I 
understand it is the goal to make laws and policies that apply to all, 
I would be remiss if I did not use this opportunity to state the need 
to excavate the deep social, cultural, and structural barriers 
impacting our local and regional food system, of which one system 
includes the policies at play within the USDA farm bill.
    The barriers that I will address in this testimony are ones that I 
see pertinent to efficient development of an effective local and 
regional food system: fiscal/financial/resource allocations, community 
infrastructure, and social capacity.
Barrier No. 1: Funding and Resource Allocation
    Virgin Islands Good Food Coalition, Inc., has [i]dentified funding 
and resource allocation has a major barrier. There has been no 
significant investment in building up our food system. We do not have 
the same access to assets as other parts of the nation. Our territory 
is not equipped through local government and small businesses to do the 
type of investment seen mainland or in large metropolitan locations. 
While the United State[s] Department of Agriculture has a progressive 
grant-making portfolio and provides various levels of resources to 
bolster communities all around the nation, these are not accessible in 
our territory. USDA offers a competitive grant structure and 
programmatic criteria that provides equal funding opportunity; however, 
this is not done equitably. The current USDA grant structure assumes 
that every applicant (farmer, group, state agency, community-based 
organization, university, etc.) has capacity, staffing, partnerships, 
technical skills, and community support (i.e., match or in-kind) to 
write such proposals. While these may seem simple, I assure you, after 
7 years of trying they are not. For example, the Value-Added Producer 
Grant requires a non-Federal funding match that is at least equal to 
the amount of the Federal funding requested; the Farmers' Market 
Promotion Program and the Local Food Promotion Program grants require a 
twenty-five percent match (cash or in-kind). The hardest thing to do in 
a small community is create partnerships with under-funded private and 
public entities or find a cash or true in-kind match. Therefore, 
communities like the U.S. Virgin Islands with the least assets, a 
shortage of technical expertise, limited resources for matching 
opportunities, and a higher level of need often go unserved.
    Another opportunity to highlight fiscal barriers that affect 
resilience is the post-hurricane funding priorities. Since the 
hurricanes there have been several conversations regarding the tranches 
of money that are available to support the Territory in its rebuilding 
and resiliency efforts. I am familiar with the efforts regarding the 
commitments for funding of the Education System, Health Care System, 
Housing Support, Hazard Mitigation, and Federal highways. I have been a 
part of several conversations around the need to support agriculture 
and local food systems as well but no commitments for funding has been 
made. We do not have access to funds that would allow for the 
infrastructure for local food to be developed. Similarly, there are 
still producers waiting to be reimbursed for damages to their farms 
from the hurricane. This has a major impact on their way of life, their 
businesses and our local and regional food system.
Barrier No. 2[:] Community Infrastructure
    For us to increase production, reduce the import rate and create a 
healthy local and regional food system we must address the food system 
infrastructure issues. This means every resource necessary: seed, feed 
and compost suppliers; equipment repair and fabrication services; food 
processors; distributors; retail outlets; professional services such as 
logistics managers and waste handlers; surplus food rescue; and 
financial, workforce, civic, and land and energy resources. Currently 
in the Territory's model, the farming community is primarily dependent 
on services provided through the Virgin Islands Department of 
Agriculture. Through qualitative interviews and the post-hurricane 
community food system assessments, farmers echoed their frustration 
around access to water and land preparation. VIGFC has concluded that 
on average a farmer may wait 3 months, or in extreme cases, over a year 
to have their land prepared. These services are primarily conducted by 
the Virgin Islands Department of Agriculture. This is sad, realizing 
that farmers in the contiguous United States have much different 
protocols for preparing and managing their land. There are different 
technical trainings, provisions, and access to capital that exist on 
the mainland than those that are afforded in the territory, leaving a 
stark difference in land control and preparation.
    Another challenge in infrastructure is inter-island supply and 
value-chain operations. Affordable and reliable inter island 
transportation for agricultural products that is grown, harvested, or 
prepared in the territory is not existent. Farmers working to create a 
supply chain to the entire territory have used non refrigerated cargo 
barges, private boats of people going across the Island and even 
chartered planes. Currently there is a cargo boat that leaves once a 
week in between St. Thomas and St. Croix that can hold 20 cases of 
food. For us to have a more successful food system a consistent, 
climate-controlled, affordable inter-island means of transportation is 
a priority.
    We need the opportunity to engage in capacity planning for our 
supply-chain. This could include assisting producers in determining 
production scale and market demands, there is great opportunity for 
producers to supply wholesale local food to hotel and cruise line 
markets. There are opportunities to create a plethora of value-added 
food related businesses that can fill gaps in the supply chain. 
However, we need opportunities to train persons in the community to 
lead these entrepreneurial endeavors. Which sheds light on another 
issue, lack of access to training and certifications that could bolster 
our food system.
Barrier No. 3: Social Capacity
    For many years efforts were targeted towards the [a]griculture 
[i]ndustry and focused solely on employing technical experts that could 
speak to increasing production. VIGFC has worked to convene and host 
larger conversations, through a partnership with Iowa State University 
and the Federal Emergency Management Agency Office of Community 
Planning we have trained 20 people in the territory on Local Food 
Leader and Community Food Systems. The purpose of the training was to 
increase capacity within the territory to participate and lead 
community-based food system work.
    When considering our regional relationships and what would be most 
beneficial, I would like to look at the USDA structure for assigning 
Territories and Regions. Our state Rural Development office is in 
Gainesville, Florida and our local area office is in the Virgin 
Islands. In Farm-to-School we are paired with the Mid-Atlantic Region 
and are shifting to the Northeast Region. Regions are not consistent 
between programming, and do not make sense regarding support or 
technical assistance. We are not similar regarding scale, environment, 
transportation needs, governance structure, or even culture. The 
territory would greatly benefit by being paired with and cultivating 
relationships with other islands and territories. I think that there is 
a need and a space for the Virgin Islands to have the opportunity to 
work and share directly with Puerto Rico, G[ua]m, American Samoa, 
Northern [Mariana], Hawaii and Alaska. While oceans away their 
geographic location, infrastructure challenges, cultural nuances, 
government structure, transportation solutions and agricultural 
practices will be more aligned with what we are experiencing.
    Our territory is comprised of socially-disadvantaged populations; 
however, we are still asked to deliver and withstand the same 
procedures as the mainland. The Consolidated Farm and Rural Development 
Act defines a socially-disadvantaged group as one whose members have 
been subject to racial, ethnic, or gender prejudice because of their 
identity as members of a group without regard to their individual 
qualities. USDA regulations further define socially-disadvantaged 
farmers and ranchers (SDFRs) as belonging to the following groups: 
American Indians or Alaskan Natives, Asians, Blacks or African 
Americans, Native Hawaiians or other Pacific Islanders, Hispanics, and 
women. The 2018 Farm Act includes dedicated funding providing increased 
cost-share, loss compensation and loan assistance to SDFRs, as well as 
provisions to incentivize research on issues faced by SDFRs. There is 
an understanding of the marginalization and lack of support given to 
these communities, however, there is no due-diligence or change in the 
outreach, technical assistance, or other resources provided in order to 
meet the communities where they are. As a territory we don't have the 
same technical expertise and assets; we are under-represented as all 
our farms are under-served by crop insurance, and we continue to 
experience these constraints due to systemic barriers both federally 
and locally.
    I may not be a [f]armer, but I am the descendant of two great men 
Jean Joseph Sibilly and William Florian Glasford who spent their life 
developing Farming Communities in St. Thomas and across the Caribbean. 
I am humbled and honored to steward their vision of a food secure 
territory. The time has come for us to take an innovative approach to 
how we support the development of a healthy local food system. It is my 
suggestion, through testimony, to encourage new policy and technical 
assistance regarding supporting marginalized communities, such as the 
USVI territory by making provisions to change (resource allocations, 
technical assistance, funding allocations for infrastructure, and 
support of social capacity).
    Once again, I would like to thank the Subcommittee for giving me 
the opportunity to testify before you today on the needs of advocates 
like myself when it comes to resiliency of our local and regional food 
systems. I am happy to answer any questions you may have.
Virgin Islands Good Food Coalition, Inc.
    Virgin Islands Good Food Coalition was founded in 2012 and is the 
only community-based organization of its kind in the territory. Our 
work seeks to understand and address the complex as well as historic 
systemic issues that affect the Virgin Islands food system. VIGFC 
serves as a conduit for information and a pipeline of opportunities 
that flow between policy makers, philanthropy, institutions and private 
industries to facilitate long-term change in the Virgin Islands food 
system.
    We have three primary focus areas; Food Security, having reliable 
access to a sufficient quantity of affordable, nutritious food; Food 
Sovereignty, the right of people to have culturally appropriate food 
produced through sound ecologically sustainable methods, and 
Sustainable agricultural practices, which means meeting society's food 
and textile present needs, without compromising the ability of future 
generations to meet their needs.
    The vision of the Virgin Islands Good Food Coalition is to build a 
thriving local food economy that ensures that healthy food is available 
and accessible to every resident in our territory through supporting 
farmers and locally owned food businesses. We seek to raise awareness 
about the importance of a healthy local food system and the impact of 
defining our own agriculture systems in the territory as well as 
highlight the role that we play in the global [f]ood [s]ystem. The 
mission of the organization is to aid in the revitalization of 
agriculture in the Virgin Islands by uniting local food producers, 
local businesses, and local consumers to create a sustainable network 
of local food options.

    Ms. Craig. Thank you so much, Ms. Sibilly-Brown.
    Ms. Zeman, please proceed with your testimony.

         STATEMENT OF KATHY ZEMAN, EXECUTIVE DIRECTOR, 
      MINNESOTA FARMERS' MARKET ASSOCIATION, NERSTRAND, MN

    Ms. Zeman. Chair Plaskett, Ranking Member Dunn, 
Congresswoman Craig, and Members of the Subcommittee, thank you 
for the opportunity to testify today.
    My name is Kathy Zeman. I am the Executive Director of the 
Minnesota Farmers' Market Association, and I am also an organic 
livestock farmer in Rice County, where I direct-market eggs and 
the meats, as well as value-added farm products, like my goat 
milk soap and wool dryer balls from my Icelandic sheep.
    Both I and MFMA are members of the Minnesota Farmers Union, 
and I would like to thank National Farmers Union and MFU for 
the leadership opportunities they afford farmers like me, and 
for their support for building local foodsheds in Minnesota and 
throughout the country.
    I am here today to share my perspective on local food 
system development in Minnesota, and the Federal grant programs 
housed under the umbrella of the Local Agriculture Market 
Program, or LAMP, especially the Farmers' Market Promotion 
Program, the FMPP. These programs are incredibly important for 
strengthening the local foodshed in Minnesota. They have 
improved the viability and profitability of many farm 
businesses, including mine.
    Local food sales and system capacity have grown 
tremendously over the past several decades. As an example, in 
Minnesota, we started out with 15 farmers' markets in 1998, and 
last year, we grew to 302. To help local food systems sustain 
their growth and serve their communities and to help 
organizations like MFMA continue to build our capacity and 
serve our members, there is a need for a strategic investment 
through federally-funded programs like LAMP.
    Farmers and ranchers, on average, receive only about 15 of 
every food dollar that consumers spend, but at farmers' 
markets, farmers capture a much larger share. These markets can 
be a boom for local economies by creating local jobs and by 
driving business to nearby brick and mortar stores.
    MFMA's vision has three planks. We want to cultivate a 
vibrant local foods community, provide accessibility to local 
farm-fresh foods, and allow for opportunities for our local 
food producers to thrive and grow. Our third and second planks, 
however, making local food accessible while ensuring that our 
local food producers receive a fair price, can at times be at 
odds. We help bridge that gap, in part, thanks to the 
Supplemental Nutrition Assistance Program. MFMA has been 
supportive of Market Bucks administered by Hunger Solutions 
Minnesota, which doubles SNAP EBT purchases up to $10, dollar 
for dollar. However, monitoring and making SNAP available at 
farmers' markets is difficult for everyone. Incidentally, the 
viability of accepting SNAP benefits at farmers' markets was 
first tested through FMPP grants.
    FMPP grants have been essential to the development of 
farmers' markets broadly. Because these grants fund community-
wide and state-wide projects, rather than just individuals, 
their benefits are often far-reaching. Moreover, the entities 
eligible for FMPP grants truly need these funds. In many cases, 
organizations that do the farmers' market work and local food 
capacity building are not able to secure loans, venture 
capital, or other vital resources.
    In 2014, we received an FMPP grant called Developing 
Sustainable Farmers' Markets in Minnesota. We traveled across 
the state offering eight 1 day farmers' market academies to 
market managers and vendors with a focus on profitability and 
food safety. We taught 548 attendees, completed 78 one-on-one 
consultations with markets and vendors to optimize their sales, 
and introduced many folks to our organization.
    In 2017, MFMA advised on a 3 year FMPP grant received by 
the University of Minnesota, with a focus on the seven county 
Minneapolis/St. Paul metro area. That project gathered metrics 
on the customers, vendors, partners, and prospective lenders.
    In 2019, 70 markets with about 13 unique vendors 
participated in the project with 11,200 market visitors 
completing the surveys. Overall, the data that we collected 
through this project taught us that we need more data and 
research on our local food systems, and that we need to 
continue to refine our methods of data collection. This grant 
only allowed us to capture data on seven counties. We have 80 
more counties in Minnesota that have farmers' markets. If we 
understood our markets better, we could then better invest in 
our local farm and food systems, and then we would be able to 
grow that market even more sustainably.
    While FMPP has been immensely valuable to date, there are 
certainly opportunities for program improvement. Local and 
regional food system development is typically carried out by 
smaller and sometimes under-resourced community organizations. 
These organizations know the communities in which they are 
embedded, and they should be integral to the local food 
development system.
    As you know, the 2018 Farm Bill requested a 25 percent 
matching grant requirement. We would welcome waiving that match 
on a case-by-case basis for certain organizations that are 
under-resourced.
    Local food, whether direct-to-consumer via farmers' markets 
or other marketing channels, has cemented itself as part of the 
food system in the U.S. We are grateful that lawmakers mandated 
permanent mandatory funding to LAMP in the 2018 Farm Bill.
    I look forward to working with all of you in the future 
local food systems, and I welcome your questions. Thank you.
    [The prepared statement of Ms. Zeman follows:]

   Prepared Statement of Kathy Zeman, Executive Director, Minnesota 
               Farmers' Market Association, Nerstrand, MN
    Chair Plaskett, Ranking Member Dunn, and Members of the 
Subcommittee, thank you for the opportunity to testify today.
    My name is Kathy Zeman, and I am the Executive Director of the 
Minnesota Farmers' Market Association (MFMA), a position I've held 
since 2012. I am also an organic livestock farmer in Rice County, 
Minnesota. I primarily direct market eggs and meats, as well as value-
added farm products, like goat milk soap and wool dryer balls from my 
Icelandic sheep.
    I am an individual member, and MFMA is an organizational member, of 
Minnesota Farmers Union (MFU). I'd like to take this opportunity to 
thank National Farmers Union (NFU) and MFU for the leadership 
opportunities they afford farmers like me, and for their support 
building local foodsheds in Minnesota and throughout the country.
    I am here today to share my perspective on and experience with 
local food system development in Minnesota and the three Federal grant 
programs housed under the umbrella of the Local Agriculture Market 
Program (LAMP), especially the Farmers Market Promotion Program. These 
programs are incredibly important for strengthening and growing the 
local and regional foodshed in Minnesota. They have improved the 
viability and profitability of many farm businesses, including mine. I 
look forward to sharing why these programs are so important and where 
there are opportunities for program improvement.
The Importance of Local and Regional Food Systems, and the Role of 
        Farmers' Markets
    ``Local'' and ``regional'' food systems have grown tremendously in 
recent decades. Nationally, between 1992 and 2007, direct-to-consumer 
sales of unprocessed products approximately doubled from $706 million 
to $1.4 billion (in 2017 dollars).\1\ The number of farmers' markets in 
the United States grew from fewer than 2,000 in 1994 to more than 8,600 
registered in the USDA Farmers' Market Directory today.\2\ In 
Minnesota, we grew from approximately 15 markets in 1998 to more than 
300. This growth can be attributed to many factors. But, to help these 
systems sustain their growth and serve their communities, and to help 
organizations like the Minnesota Farmers' Market Association (MFMA) 
continue building capacity, there is a need for strategic investment 
through programs like LAMP.
---------------------------------------------------------------------------
    \1\ Jeffrey K. O'Hara and Matthew C. Benson. ``Where have all the 
direct-marketing farms gone? Patter[n]s revealed from the 2017 Census 
of Agriculture.'' Journal of Agriculture, Food Systems, and Community 
Development. August 23, 2019.
    \2\ Farmers Market Coalition. https://farmersmarketcoalition.org/
education/qanda/.
---------------------------------------------------------------------------
    Farmers' markets are perhaps the most widely known approach to 
direct-marketing food and other farm products. Farmers and ranchers on 
average receive only about 15 of every food dollar that consumers 
spend.\3\ At farmers' markets, farmers capture a much larger share. 
These markets can be a boon for local economies because they generate 
local business, which also creates local jobs. We also find that 
farmers' markets tend to drive business to brick and mortar stores 
wherever they are located, helping keep the consumer dollar circulating 
in local and regional economies.
---------------------------------------------------------------------------
    \3\ National Farmers Union. The Farmer's Share. January 31, 2020.
---------------------------------------------------------------------------
    Farmers' markets are also excellent business incubators, including 
for under-served communities. These markets have low overhead costs and 
they provide a relatively simple and straightforward opportunity for 
businesses to test out new products for customer satisfaction and 
pricing for profitability.
Farmers' Markets: Promoting Economic Opportunity and Local Food Access
    Minnesota Farmers Market Association (MFMA) is Minnesota's 
membership organization for the more than 300 farmers' markets in the 
state, as well as several thousand farmers, food makers, and artisanal 
craft vendors that sell at these markets. MFMA's mission is to support 
all Minnesota farmers' markets. And our vision is as follows:
    We envision a community of vibrant, profitable, and professionally 
managed Minnesota farmers' markets that:

  <bullet> Cultivates, nourishes and inspires a vibrant local foods 
        community;

  <bullet> Provides accessibility to local farm-fresh foods; and

  <bullet> Allows opportunities for local food producers to thrive and 
        grow.

    The second and third planks of our vision--making local food 
accessible while also helping local food producers receive a fair price 
for what they have grown or made--can at times be at odds. An important 
way we bridge that gap is through the Supplemental Nutrition Assistance 
Program (SNAP), formerly known as food stamps. SNAP helps low income 
Americans purchase food, and the program also supports farmers and 
farmers' markets in all 50 states.
    In 2019, 106 markets in Minnesota accepted SNAP benefits. SNAP 
customers at these markets spent just shy of $165,000 using the SNAP 
Electronic Benefit Transfer (EBT) system. While challenges remain that 
make it difficult for farmers' markets to accept EBT, this process has 
become much more mainstream. Additionally, Minnesota funds a program 
called Market Bucks, administered by Hunger Solutions Minnesota, which 
doubles SNAP-EBT purchases up to $10, dollar-for-dollar, at 
participating farmers' markets in the state. Matching dollars came to a 
little over $140,000 in 2019, creating over $546,000 in additional 
economic activity in communities throughout Minnesota.\4\
---------------------------------------------------------------------------
    \4\ Market Bucks, Hunger Solutions Minnesota. http://
www.hungersolutions.org/programs/market-bucks/.
---------------------------------------------------------------------------
    The USDA Farmers' Market Promotion Program (FMPP) has been critical 
to the development of food access at farmers['] markets. The viability 
of SNAP and incentive programs at farmers['] markets was tested and 
demonstrated through early FMPP grants, which laid the groundwork for 
the current program including the Gus Schumacher Nutrition Incentive 
Program.\5\
---------------------------------------------------------------------------
    \5\ Farmers' Market Promotion Program 2010--Final Performance 
Report. ``Expanding Farmers Market Opportunities and Sales in 
Chicago.'' https://www.ams.usda.gov/sites/default/files/media/
IL%20FY10%20Experimental%20Station%20-%20%2461%2C784.pdf.
---------------------------------------------------------------------------
    The Gus Schumacher Nutrition Incentive Program (GusNIP), formerly 
known as the Food Insecurity Nutrition Incentives (FINI) Program, 
provides grants on a competitive basis at the Federal level to projects 
that help low-income consumers access and purchase fresh fruits and 
vegetables, similar to Market Bucks in Minnesota. Strong Federal 
funding and support for programs like GusNIP, as well as the removal of 
unnecessary barriers to accepting incentives and benefits provided by 
these programs, are incredibly important, both for ensuring low income 
consumers have access to healthy, local produce and to increase 
economic opportunity for local farmers and food makers.
    The legal environment can sometimes pose challenges to the success 
of farmers' markets, and we have worked hard in Minnesota in recent 
years to increase the viability of our markets and vendors. MFMA has 
worked collaboratively to change laws at the state level in Minnesota 
to open new opportunities for vendors, while still protecting consumer 
health and safety. Key changes include:

  <bullet> In 2014, the Safe Food Sampling law was passed that now 
        allows food sampling and cooking demos at any farmers' markets, 
        without a license, if food safety requirements are followed. 
        Food sampling is critical for our produce farmers if they want 
        people to buy crops like kale, or try out novel items like 
        cauliflower pizza crusts; and

  <bullet> In 2015, our Cottage Foods Law was amended to mandate food 
        safety training, allow online advertising, allow sales from 
        homes as well as farmers' markets, and expand the sales cap. 
        Since then, we have registered just shy of 4,000 cottage foods 
        producers, with estimated annual sales of $25 million and 
        growing.

    We collaborated on the above efforts with a wide range of 
organizations, including Minnesota Farmers Union, Renewing the 
Countryside, the University of Minnesota Institute for Sustainable 
Agriculture (MISA) and the Regional Sustainable Development 
Partnerships, the Sustainable Farming Association (SFA) of Minnesota, 
Land Stewardship Project, and the Minnesota Departments of Agriculture 
and Health.
The Minnesota Farmers' Market Association (MFMA) and Farmers' Market 
        Promotion Program (FMPP) Grants
    The Minnesota Farmers' Market Association has first-hand experience 
with a key Federal program aimed at increasing economic opportunities 
from local agricultural markets: the Farmers['] Market Promotion 
Program (FMPP). The purpose of FMPP is to increase domestic consumption 
of, and access to, locally and regionally produced agricultural 
products, and to develop new market opportunities for farm and ranch 
operations serving local markets.\6\
---------------------------------------------------------------------------
    \6\ USDA-AMS, Farmers' Market Promotion Program. https://
www.ams.usda.gov/services/grants/fmpp.
---------------------------------------------------------------------------
    MFMA is pleased that FMPP, as well as the Local Food Promotion 
Program (LFPP) and the Value-Added Producer Grant (VAPG) program, all 
have permanent, mandatory funding through the 2018 Farm Bill under the 
LAMP umbrella. We are grateful that lawmakers recognized the growing 
demand for locally and regionally produced food, and the unique 
economic opportunities created by burgeoning local and regional food 
systems.
    FMPP grants have been essential to the innovation, growth, and 
development of farmers' markets. Because these grants fund community-
wide and statewide projects, rather than individuals, their benefits 
are often far-reaching. Moreover, the entities eligible for FMPP grants 
truly need these funds; in many cases, organizations doing farmers' 
market and local food capacity building work are not able to secure 
loans, venture capital, or other vital resources. FMPP has helped 
countless farmers' markets get started or expand operations, have 
created new market opportunities for numerous farmers and 
entrepreneurs, and have created a venue for communities to procure 
fresh, locally produced produce and other products.
    In 2014, MFMA received a 2 year, $61,496 FMPP grant called 
``Developing Sustainable Farmers' Markets in Minnesota.'' The goal of 
the project was to improve farmers' markets in Minnesota through 
regional trainings to market managers and vendors.\7\ In order to 
ensure our work was accessible, we traveled across Minnesota teaching 
eight 1 day ``Farmers' Market Academies,'' to market managers and 
vendors, with a focus on profitability and food safety. We contracted 
with two University of Minnesota Extension educators to develop 
curriculum; reached 548 attendees; and completed 78 one-on-one 
consultations with markets and vendors on layout and design of the 
markets and vendor booths to optimize sales.
---------------------------------------------------------------------------
    \7\ USDA-AMS, FMPP Awarded Grants, FY 2014. https://
www.ams.usda.gov/sites/default/files/media/FMPPAward2014.pdf.
---------------------------------------------------------------------------
    This FMPP grant offered numerous benefits to farmers and vendors in 
the local foodshed while strengthening MFMA as an organization. Through 
our work on the Academies, MFMA welcomed over 40 new members and 
gathered 250 new contacts, which increased our ability to offer 
education and support throughout the region in which we work. 
Approximately 80 percent of Farmers' Market Academy attendees ranked 
them ``very useful.'' Ultimately, MFMA only needed to spend about $98 
per attendee to help each person we served through our project.
    In 2017, MFMA became an advisor to an FMPP grant received by the 
University of Minnesota, a 3 year $448,410 grant called ``Building a 
Community of Farmers' Markets for a Healthier Food System in the Twin 
Cities Metro.'' With a focus on the farmers' markets in the seven 
county Minneapolis-St. Paul metro region, this project is aimed at 
providing data collection tools and data products that help market 
managers customize metrics and reports for existing partners and 
prospective funders. Data are being gathered from the markets, their 
vendors, and their customers. Reliable data are essential for 
maintaining or growing funding for local and regional food system 
initiatives. More and better data can also ultimately contribute to 
improving policy development and design for the local food sector in 
general.
    Each year, grant funds paid markets a stipend of $150 and vendors 
$25 to collect data. They also helped fund the travel expenses for ten 
student interns each summer to gather and analyze data under the 
supervision of University of Minnesota project leaders. In 2019, 70 
markets with 1,308 unique vendors participated in the project, with 
11,200 market visitors completing surveys.\8\ Key research findings 
from this project include:
---------------------------------------------------------------------------
    \8\ University of Minnesota. FM360: The Farmers Market Metrics 
Project. https://fm360.umn.edu/.

  <bullet> 24 percent of vendors selling at farmers' markets are 35 
        years old or younger, with an average age of 48 (the average 
        age of all farmers in Minnesota was 56.5 in 2017); \9\
---------------------------------------------------------------------------
    \9\ USDA-NASS. 2017 Census of Agriculture. Minnesota. Table 52, 
Selected Producer Characteristics, 2017 and 2012. https://
www.nass.usda.gov/Publications/AgCensus/2017/Full_Report/
Volume_1,_Chapter_1_State_Level/Minnesota/st27_1_0052_0052.pdf.

---------------------------------------------------------------------------
  <bullet> 74 percent of vendor businesses are owned by women;

  <bullet> 35 percent of vendor businesses are owned by people of 
        color;

  <bullet> Farmers' market vendors employed, on average, approximately 
        six people; and

  <bullet> Vendors reported sales of about $29 million, or about 
        $22,000 in annual sales per vendor.

    Findings thus far indicate that farmers' markets are important 
community assets. They are outlets for entrepreneurship that create 
jobs in the community and do so in a way that is diverse and inclusive.
    The project's findings also show that we still need improved data 
on farmers['] markets and local and regional farm and food systems. 
This grant only allowed us to collect data in seven counties, but there 
are 80 additional counties in Minnesota that are home to farmers' 
markets. We also need to extend this work by refining data collection 
methodologies. We would be better positioned to make smart investments 
in our local farm and food system in Minnesota if we could paint a more 
thorough picture of that ecosystem through solid qualitative and 
quantitative data.
Opportunities To Improve the Farmers' Market Promotion Program (FMPP)
    As described above, FMPP has been immensely impactful, but there 
are also opportunities for program improvement. The following are some 
ideas I hope the Committee and USDA will consider that can help FMPP, 
and in some cases LFPP and VAPG, continue to build on their many 
successes, while also taking cues from past challenges presented by 
program design and implementation.
    Local and regional food system development is typically carried out 
by smaller, and in some cases under-resourced, community organizations. 
These organizations know the communities in which they are embedded and 
should be integral to local and regional food and farm system 
development. But, to do their job well, they need more technical 
assistance than they are currently receiving, both for grant 
application development and carrying out grant requirements 
successfully. We applaud lawmakers for including in the 2018 Farm Bill 
the opportunity for a simplified application and reporting process for 
recipients of smaller grants. However, more can be done through 
technical assistance from USDA to help all FMPP, LFPP, and VAPG grant 
recipients apply for grants and deliver successfully on grant 
deliverables.
    The 2018 Farm Bill included a new 25 percent matching requirement 
for FMPP that was previously only required for LFPP. Matching 
requirements can be important for maintaining program integrity, but 
they can also disadvantage smaller, under-resourced organizations. In 
the spirit of equity, we would welcome the opportunity for the match to 
be waived on a case-by-case basis for certain community-based 
organizations.
    As noted earlier, we need more and better data and research, and 
funding for this research, so that we can make smart decisions about 
how to strengthen both farmers' markets and our local and regional farm 
and food system more broadly. The U.S. Census of Agriculture, which 
first started asking question about sales of edible products to direct-
to-consumer outlets in 1978, is incredibly important for helping 
researchers uncover broader trends in the sector. And the Local Food 
Marketing Practices Survey (LFMPS), first administered in 2016 to 
collect 2015 data, is another important product.\10\ These data are not 
granular enough to help us make improvements in our state and at the 
community-level.
---------------------------------------------------------------------------
    \10\ Jeffrey K. O'Hara and Matthew C. Benson. ``Where have all the 
direct-marketing farms gone? Patter[n]s revealed from the 2017 Census 
of Agriculture.'' Journal of Agriculture, Food Systems, and Community 
Development. August 23, 2019.
---------------------------------------------------------------------------
    Finally, we would like to note that we have not been the recipient 
of an FMPP grant since program changes were made with the creation of 
the LAMP. We are excited by LAMP's new initiatives, including the 
regional partnership program, as well as support for value chain 
coordination, food safety infrastructure development, and food safety 
certification. We look forward to following and engaging with the 
program as it continues to evolve and hope to play a constructive role 
in its future development.
Conclusion
    Local food, whether direct-to-consumer via farmers' markets or 
through other marketing channels, has cemented itself as an important 
feature of the food system in the state of Minnesota and throughout the 
United States, in urban and rural communities alike. In order to help 
local and regional food systems continue to mature, they need strong 
investment from well-designed Federal programs, for which LAMP and its 
subprograms play a leading role. I look forward to working with 
Congress and USDA to continue to improve and grow these programs so 
that farmers and eaters, and the communities in which they are 
embedded, can thrive.
    Thank you for the opportunity to testify. I look forward to your 
questions.

    Ms. Craig. Thank you so much, Ms. Zeman.
    Mr. Oliver, please begin.

STATEMENT OF CLAY OLIVER, OWNER, OLIVER OIL COMPANY LLC, PITTS, 
                               GA

    Mr. Oliver. Good morning, Subcommittee Chair Plaskett, 
Ranking Member Dunn, and Members of the Subcommittee. Thank you 
for the opportunity to testify before you about my family's 
farm and the Value-Added Producer Grant Program.
    My name is Clay Oliver, and I am the owner of Oliver Farm 
Artisan Oils. We are a small family business located in Pitts, 
Georgia. Currently, we produce oils from six different seeds 
and nuts. Our oils are sold in retail size bottles up to 
industrial volumes. Cold-pressed and unrefined, our oils taste 
like the seed or nut that they are extracted from. They retain 
their vitamins and healthy nutrients because of the slow, 
gentle way they are processed, and they can be used in many 
ways.
    At Oliver Farm, we also mill our defatted meal after the 
oil pressing into finely ground flours. These seed and nut 
flowers offer a tasty, gluten-free option to wheat and grain 
flours for those with grain allergies, and as a tasty twist on 
classic desserts.
    I grew up on a small family farm near Pitts in Wilcox 
County. My father was the fourth generation to buy and live on 
the same land. He worked hard to make it during the 1970s and 
1980s as a small dryland farmer. My mother and father strived 
to provide and improve our way of life, and instilled in me a 
strong work ethic and desire to learn, and I am very thankful 
for it.
    I worked on the farm for my daddy and at other jobs 
throughout my youth. After college and a brief time working in 
education, I found myself back on the farm working for my 
father, and eventually with my brother, Clint. Clint and I ran 
a 500 acre farm on our own, and worked as partners for about 10 
years. Then on April 18, 2008, my father died suddenly of a 
heart attack at age 55. My mother, Jurice, Clint, and I were 
thrust into roles, we did not anticipate, overnight.
    As you know, during 2008 the great recession began and 
people all over felt the effects. Our fuel prices skyrocketed 
and there was a lot of talk about alternative fuel sources. 
That sparked in me an interest that I knew very little about, 
and I began researching and visiting oil plants, learning 
everything I could about this. My initial thought was to make 
my own fuel and supplement what we used. However, the equipment 
is expensive and the savings on fuel would not pay for the 
equipment for a long time. I was very fortunate to meet some 
people who influenced me to consider growing, processing, and 
selling food grade oils.
    After spending some time thinking about it and doing my 
research, I fell in love with the idea of growing and 
processing sunflower oil on our farm, and that is when the Lord 
began to open some doors for me. In 2012, I grew my first crop 
of sunflowers for oil production, and by the end of that year, 
we had pressed oil from sunflowers, pecans, and peanuts all 
grown in our county. From that time until now, I have slowly 
grown our little business and awareness of the benefits of 
cold-pressed oils. Our little artisan oil business has been so 
successful that after 17 years of teaching, my wife left school 
to help us in the business. We have two beautiful daughters, 
Maggie and Molly, that also help when they are not in school.
    When I made the decision to pursue my dream, I knew I would 
need guidance from the Georgia Department of Agriculture, and 
soon joined their marketing program, Georgia Grown. Through my 
involvement with Georgia Grown, I first became aware of the 
Value-Added Producer Grant Program, and that I might qualify 
for it. Then I met Al Burns with USDA Rural Development in 
Georgia, and he encouraged me to apply for the Value-Added 
Producer Grant. I did, and in 2015, Oliver Farm was awarded a 
matching $250,000 working capital grant. The funds were used 
for processing, sales, and marketing.
    The impact of the grant was phenomenal for our company. 
Having a trained operator allowed me time to focus on other 
things and led to an overall increase in our production. The 
money we used to enter new markets helped build awareness of 
our brand and a connection to the people. The money I used for 
marketing opened doors not only for immediate sales, but 
relationships to be established and a sense of community beyond 
our little farm began to form. The Value-Added Producer Grant 
money we used for advertising was not only successful in 
growing awareness of our brand, it has also opened doors for 
new opportunities, as consumers ask for new products and 
tourism-related ventures. For instance, increased requests for 
on-farm visits and direct purchasing has led Valerie and I to 
invest in a storefront and an event space.
    Overall, the Value-Added Producer Grant gave me support and 
encouragement to take a leap of faith and grow my business 
beyond my means. Though it required getting out of my comfort 
zone in many ways, without a doubt, it made our business 
stronger.
    The paperwork was daunting. Until I was familiar with the 
process, it was confusing. Thankfully, I had an awesome grant 
manager I worked with who was readily available to put me on 
the right track.
    If I could change one thing about VAPG, it would be that 
the money received is not considered taxable income. I have 
already made it and been taxed on it once. It doesn't seem fair 
to be taxed on it again.
    Looking forward, I hope that Oliver Farm Artisan Oils will 
continue to be a leader in the good food movement by producing 
high quality straight off the farm oils and by building a 
stronger sense of community through our partnerships with other 
makers and consumers, and to rebuild the local fresh food 
presence in my hometown of Pitts through our new store. Thank 
you for this opportunity to testify about my family's farm and 
the value of the Value-Added Producer Grant. Thank you for 
funding programs like it in the new LAMP Program.
    Thank you.
    [The prepared statement of Mr. Oliver follows:]

   Prepared Statement of Clay Oliver, Owner, Oliver Oil Company LLC, 
                               Pitts, GA
    Good morning, Subcommittee Chair Plaskett, Ranking Member Dunn, and 
Members of the Subcommittee. Thank you for the opportunity to testify 
before you about my family's farm and the Value-Added Producer Grant 
(VAPG) Program. My name is Clay Oliver and I am the owner of Oliver 
Farm Artisan Oils.
    Oliver Farm Artisan Oils is a small family business located in 
Pitts, Georgia. Currently we produce oils from six different seeds and 
nuts. Our oils are sold in retail size, 8 and 16 oz bottles, up to 
industrial volumes. Cold-pressed and unrefined, our oils taste like the 
seed or nut they are extracted from. They retain their vitamins and 
healthy nutrients because of the slow, gentle way they are processed 
and can be used in many ways, from making dressings to cooking and 
frying. At Oliver Farm we also mill our defatted meal after the oil 
pressing into finely ground flours. These seed and nut flours offer a 
tasty [g]luten [f]ree option to wheat and grain flours for those with 
grain allergies, and a tasty twist on classic desserts.
    I grew up on a small family farm near Pitts in Wilcox County. My 
father was the fourth generation to buy and live on the same land. He 
worked hard to make it during the late 1970s and early 1980s as a small 
dryland farmer. My mother and father strived to provide and improve our 
way of life and instilled in me a strong work ethic and desire to learn 
that I am very thankful for. I worked on the farm for my daddy and at 
other jobs throughout my youth. After college and a brief time working 
in education, I found myself back on the farm working for my father and 
eventually with my brother Clint. Clint and I rented a 500 acre farm of 
our own and worked as partners for 10 years. On April 18, 2008 Daddy 
died of a sudden heart attack at 55. My mother, Jurice, Clint and I 
were thrust into roles we did not anticipate overnight.
    During 2008 the great recession also began and people all over felt 
the effects. Our fuel prices skyrocketed and there was a lot of talk 
about alternative fuel sources. That sparked in me an interest in an 
area that I knew very little about. I began researching, visiting oil 
plants, and talking to individuals in this field. My initial thought 
was to make my own fuel to supplement what we used. However, the 
equipment needed to extract oil is expensive, and the savings on fuel 
would not pay for the equipment for many years. During my research and 
exploration, I was fortunate enough to meet a couple of people who 
influenced me to consider growing, processing, and selling food grade 
oil. After spending some time thinking about it and doing my research, 
I fell in love with the idea of growing and processing sunflower oil on 
our farm.
    In 2012[,] I grew my first crop of sunflowers for oil production 
and by the end of 2012 I had pressed oil from sunflowers, pecans, and 
peanuts all grown in Wilcox County. From that time until now I have 
slowly grown our little business and awareness of the benefits of cold-
pressed oils. My brother now manages our family farm for my mother 
along with his own farm. Our little artisan oil business has been so 
successful that after seventeen years of teaching school my wife left 
education to help with the oil business. We have two beautiful 
daughters Maggie and Mollie that also help when they are not in school.
    When I made the decision to pursue my dream I knew I would need 
guidance from the Georgia Department of Agriculture and soon joined 
their marketing program Georgia Grown. Through my involvement with Ga 
Grown I first became aware of the VAPG program and that I might qualify 
for it. Then I met Al Burns with USDA Rural Development in Georgia and 
he encouraged me to apply for the VAPG. I did and in 2015 Oliver Farm 
was awarded a matching 250,000 working capital grant. The funds were 
used for:

  1.  Processing (hire a press operator, bottle costs).

  2.  Sales (new markets, set up, hire market reps, travel expenses).

  3.  Marketing (attend trade shows, advertising billboards and other).

    The impact of the grant was phenomenal for our company. Having a 
trained press operator allowed me the time to focus on other things and 
led to an overall increase our production of oils. The money we used to 
enter new markets helped build awareness of our brand and a connection 
to the people. The money I used for marketing opened doors not only for 
immediate sales, but for relationships to be established and a sense of 
community beyond our little farm to form. The VAPG money we used for 
advertising was not only successful in growing awareness of our brand, 
it also has opened doors for new opportunities as consumers ask for 
other products and tourism related ventures. For instance, increased 
requests for on farm visits and direct purchasing has led Valerie and I 
to invest in a storefront and event space.
    Oliver Farm Artisan Oils have since been featured in publications 
such as Garden & Gun Magazine and The New York Times. Our products have 
been winners of five Good Food Awards, an International Flavor Award, a 
LUXE Life Award and our products have been featured in the PBS 
Documentary TasteMAKERS: Extracted. In addition, our oils are used by 
great chefs and everyday cooks nationwide and can be found at many 
retail outlets and at www.oliverfarm.com.
    Overall, VAPG gave me support and encouragement to take a leap of 
faith and grow my business beyond my means. Though it required getting 
out of my comfort zone in many ways, without a doubt it made our 
business stronger. The paperwork is daunting and until I was familiar 
with the process, it was confusing. Thankfully my awesome grant manager 
I worked with at RD was readily available to help and keep me on the 
right track. If I could change one thing about the VAPG it would be 
that the money received is not considered taxable income. It does not 
seem fair to be taxed on reimbursement of money that one has been taxed 
on already.
    I am very appreciative of the funding we received from VAPG from 
2015-2018 and also to the USDA for funding other programs that have 
benefited our farm. Incentives from the EQIP program helped transition 
our farm from conventional tillage to conservation tillage and has 
helped support and maintain wildlife habitat on our property. My 
brother and I have used the help of USDA to renovate outdated 
irrigation equipment and control erosion on an abused farm we purchased 
in 2010. The impact of these improvements will be felt for generations 
to come.
    Looking forward, I hope that Oliver Farm Artisan Oils will continue 
to be a leader in the good food movement by producing high quality, 
straight off the farm oils and by building a stronger sense of 
community through our partnerships with other makers and consumers, and 
to rebuild the local, fresh food presence in my hometown of Pitts 
through our new store.
    Thank you for the opportunity to testify about my family's farm and 
business and the importance of VAPG. I also want to thank you for 
reauthorizing VAPG in the 2018 Farm Bill and providing it with 
mandatory funding as a subprogram of the Local Agriculture Market 
Program.

    Ms. Craig. Thank you so much, Mr. Oliver.
    Mr. Erickson, we are ready whenever you are ready to begin.

STATEMENT OF BRET ERICKSON, SENIOR VICE PRESIDENT FOR BUSINESS 
            AFFAIRS, J&D PRODUCE INC., EDINBURG, TX

    Mr. Erickson. Hello. Good morning, Chair Plaskett, Ranking 
Member Dunn, and Committee Members. My name is Bret Erickson. I 
am Senior Vice President for Business Affairs at J&D Produce. I 
have worked in agriculture my entire career. Prior to joining 
J&D, I was President and CEO of Texas International Produce 
Association, and Executive Vice President for Texas Vegetable 
Association for almost 6 years. I am very familiar with the 
challenges you are exploring here today. As a former 
Association executive, I spent a good amount of time developing 
ways to help promote and sustain local agriculture in our State 
of Texas.
    J&D is a family-owned and operated business headquartered 
in Edinburg, Texas in the Rio Grande Valley. Our owners, Jimmy 
and Diane Bassetti, moved from Vineland, New Jersey, to 
McAllen, Texas in 1984, and started the business in 1986. J&D 
is truly an American dream that continues to thrive today. We 
are a grower/packer/shipper of fresh greens, sweet onions, 
cabbage, and melons. To give you an idea of the diversity of 
crops we grow, we produce almost 30 different types of greens 
alone, including kales, chards, collards, mustard greens, 
kohlrabi, beets, and herbs, to name a few.
    Most of the products we offer are grown on our land and 
managed by our own people. However, we also work very closely 
with many other farmers in south Texas and handle their produce 
as well. Our company helps those farmers by harvesting, 
washing, packing, marketing, selling, and collecting on those 
sales. We also help with things such as food safety, financing, 
and regulatory compliance for our smaller growers who might not 
otherwise have the ability to juggle those activities. Although 
our company may not be the 5 or 10 acre farm, we are very much 
still a family operation. The Bassetti's know each and every 
employee by name.
    We are engaged in the local community in a wide range of 
activities: the Rio Grande Valley Citrus and Vegetable Day 
which introduces young children in 4-H and FFA to the 
harvesting, growing, and marketing of fruits and vegetables; 
local donations of produce to the elementary school and high 
schools; providing produce for the Healthy South Texas 
Initiative with Texas A&M; donating and selling product to 
Feeding Texas food bank system; donating and participating in 
school gardens and salad bar initiatives in our communities. 
Not to mention we sell directly to local restaurants and 
schools, as well as hosting dieticians and chefs and children 
to tour our farms and packing operations to help promote and 
educate our local community about agriculture and fresh produce 
at the local level.
    We also invest time and money in the local universities as 
they develop and refine agricultural curriculum to develop 
local talent to fill our future job needs. Attracting talent to 
the Rio Grande Valley can be challenging. We know recruiting 
local talent for future jobs in Texas will be most sustainable 
for our industry.
    We work hard to support our community and to ensure that 
the citizens who live in Texas have access to locally grown, 
fresh, safe, nutritious, and healthy fruits and vegetables. We 
sell to numerous local restaurants and regional grocery chains 
in Texas such as HEB, United, Whole Foods, and Kroger, and we 
work hard to promote the fresh fruits and vegetables that we 
grow.
    Locally-grown is very meaningful to us, especially in this 
day where international trade agreements and labor shortages 
continue to pressure and push companies like ours out of 
business. The J&D footprint in Texas was built by Jimmy and 
Diane, not by a gift, not by consolidation. They built it 
together, one day at a time, methodically over the course of 34 
years through hard work, hard times, and hard weather. They 
have lost and they have gained. They have been handed nothing, 
but have grown the business so that it now supports 180 full-
time employees. That is 180 families who are part of our own 
J&D family. And the ability to grow their organization over 
these 4 decades has been in no small part because they have 
been focused on locally-grown. They have been focused on 
nutrition, health, access to affordable fruits and vegetables, 
and protecting the American farmer. And as a recipient of the 
2019 Vegetable Grower of the Year award from American Vegetable 
Grower magazine, J&D Produce is the embodiment of the American 
farmer.
    In Texas, we have seen double digit increases year over 
year for the last decade for volumes of fresh fruits and 
vegetables. This is a bittersweet figure. J&D has increased the 
volumes of our own imported products for several reasons. One, 
that our business is growing and demands for fresh fruits and 
vegetables continue to grow. Why? Simply because the population 
is growing and there are more mouths to feed, but we also have 
to import more product because we don't have the labor to 
harvest the volumes that are demanded by our customers. Our 
organization strongly believes that if this government can 
address our ag labor shortages now, all the farmers that are 
represented here today can expand their operations tomorrow. 
The American farmer is being attacked on all fronts, mostly by 
regulations and rising resource costs. But there is no bigger 
disservice than preventing them, us, from accessing the labor 
needed to pick our crops.
    We have friends who farm in west and central Texas who are 
limiting the size of their plantings or simply closing their 
operations because the labor shortage has not been addressed 
since 1986. I realize today's hearing is focused on local, but 
I would be remiss as a farmer who prides themselves on a local 
aspect and who too is struggling to compete because of labor 
shortages. After all, you can't have local ag at our scale if 
you don't have a labor supply to sustain it.
    Thank you for the opportunity to testify here today, and 
God bless the American farmer.
    [The prepared statement of Mr. Erickson follows:]

Prepared Statement of Bret Erickson, Senior Vice President for Business 
                Affairs, J&D Produce Inc., Edinburg, TX
    Hello and good morning, Chair Plaskett, Ranking Member Dunn, and 
Committee Members. My name is Bret Erickson and I am Senior Vice 
President of Business Affairs at J&D Produce Inc. I have worked in 
agriculture my entire career. Prior to joining J&D, I was President & 
CEO of the Texas International Produce Association and Executive Vice 
President for the Texas Vegetable Association for almost 6 years. I am 
quite familiar with the challenges you are exploring here today. As a 
former association executive, I spent a good amount of time developing 
ways to help promote and sustain local agriculture in Texas.
    J&D is a family owned and operated business headquartered in 
Edinburg, Texas in the Rio Grande Valley. Our owners, Jimmy & Diane 
Bassetti moved from Vineland, New Jersey to McAllen, Texas in 1984 and 
officially started the business in 1986. J&D is truly an American Dream 
that continues to thrive today. We are a grower/packer/shipper of fresh 
greens, sweet onions, cabbage, and melons. To give you an idea of the 
diversity of crops we grow, we produce almost 30 different types of 
greens alone, including numerous kales, chards, collards, mustard 
greens, kohlrabi, beets and herbs to name a few.
    Most of the products we offer are grown on our own land and managed 
by our own people. However, we also work very closely with many other 
farmers in South Texas and handle their produce too. Our company helps 
those farmers by harvesting, washing, packing, marketing, selling and 
then collecting on those sales. We also help with things such as food 
safety, financing, and regulatory compliance for our smaller growers 
who might not otherwise have the ability to juggle those activities. 
Although our company may not be the 5 or 10 acre farm, we are very much 
still a family operation. The Bassetti's know each and every employee 
by name.
    We are engaged in the local community in a wide range of 
activities: the Rio Grande Valley Citrus & Veg Day which introduces 
young children in 4-H & FFA to the harvesting and growing of fruits and 
vegetables; local donations of fresh produce to elementary middle and 
high schools; providing produce for the Healthy South Texas initiative 
with Texas A&M; donating and selling product to the Feeding Texas Food 
Banks system, donating and participating in school garden & salad bar 
initiatives in our community. Not to mention we sell directly to our 
local restaurants and schools, as well as host dieticians and chefs to 
tour our farms and packing operations to help promote and educate our 
local community about agriculture and fresh produce at the local level.
    We also invest time and money in the local [u]niversities as they 
develop and refine agricultural curriculum to develop local talent to 
fill our future job needs. Attracting talent to move to the Rio Grande 
Valley can be challenging, we know recruiting local talent for future 
jobs is the most sustainable solution for our industry.
    We work hard to support our community, and to ensure that the 
citizens who live in Texas have access to locally grown fresh, safe, 
nutritious and healthy fruits and vegetables. We sell to numerous local 
restaurants and regional grocery chains in Texas, such as HEB, United, 
Whole Foods, and Kroger and we work hard to promote the fresh fruits 
and vegetables we grow.
    Locally-grown is very meaningful to us, especially in this day 
where international trade agreements and labor shortages continue to 
pressure and push companies like ours out of business. The J&D 
footprint in Texas was built by Jimmy & Diane, not by gift or 
consolidation. They built it together one day at a time, methodically 
over the course of 34 years, through hard-work, hard-times and hard-
weather. They have lost and they have gained. They have been handed 
nothing but have grown the business so that it now supports 180 full 
time employees, that is 180 families, who are part of our own J&D 
family.
    And their ability to grow their organization over these nearly 4 
decades has been in no small part because they have been focused on 
locally grown. They have been focused on nutrition, health, access to 
affordable fruits and vegetables, and on protecting the American 
farmer. And as the recipient of the 2019 Vegetable Grower of the Year 
Award from American Vegetable Grower [m]agazine, J&D Produce is the 
embodiment of the American farmer.
    In Texas, we have seen double digit increases year over year for 
the last decade for volumes of fresh fruits and vegetables. This is a 
bittersweet figure. J&D has increased the volumes of our own imported 
products for several reasons. One, that our business is growing and 
demand for fresh fruits and vegetables continues to grow, why? Simply 
because the population is growing and there are more mouths to feed. 
But we also have to import more product because we don't have the labor 
to harvest the volumes that are demanded by our customers.
    Our organization strongly believes that if this government can 
address our agricultural labor shortages now, all the farmers that are 
represented here today can expand their operations tomorrow. The 
American farmer is being attacked on all fronts, mostly by regulations 
and rising resource costs, but there is no bigger disservice than 
preventing them from accessing the labor needed to pick our crops.
    We have friends who farm in west and central Texas who are limiting 
the size of their plantings or simply closing their operations because 
the labor shortage has not been addressed since 1986. I realize today's 
hearing is focused on local producers, but I would be remiss as a 
farming operation who prides themselves on the local aspect and who too 
is struggling to compete because of labor shortages. After all, you 
can't have local agriculture at our scale if you don't have a labor 
supply to sustain it.
    Regardless, we believe there should be room for many different 
definitions of agricultural producers in America and we believe there 
are many different ways to reach communities and provide locally grown 
agricultural products throughout the country. As a company that has 
dedicated 34 years to ``locally-grown'' campaigns and providing fresh 
fruits and vegetables, we also recognize that selling only local is not 
enough. We must be able to reach different markets in order to provide 
enough return to our company to continue for future seasons.
    After all, if it were not for companies like J&D that grow fruits 
and vegetables in the winter months, where would states like Montana, 
the Dakotas, and most of the Midwest be looking for their fresh 
produce? We are their ``winter salad-people.'' And likewise, during the 
summer months when south Texas has 100+ days for 4 to 5 months in a 
row, we must depend on other regions to grow our fresh fruits and 
vegetables. We are dependent on other communities, just as they are 
dependent on us.
    Thank you for the opportunity to testify today and God Bless the 
American Farmer.

    Ms. Pingree [presiding.] Thank you very much. Thank you to 
everyone on the panel. As you can see, we have had to change 
Chairs. I am Congresswoman Pingree from the State of Maine.
    I just need to say that Members will be recognized for 
questioning in order of seniority for Members who were here at 
the start of the hearing. After that, Members will be 
recognized in order of arrival. Normally the Chair goes first, 
but I am going to go ahead and recognize Mr. Cox of California 
and allow him to go first in questioning. He has 5 minutes.
    Mr. Cox. Thank you so much, Chair Pingree, and thank you to 
all of the witnesses for being here.
    Coming from the top agricultural district and the top 
agricultural state, California, farmers' markets are something 
that so many people in our communities utilize each and every 
day. They are fantastic to get fresh fruits and vegetables.
    But, to maybe all of you, how do those local consumers 
impact your decisions and some of the innovations and products 
that you produce? Is it coming from the producers, or is that 
things that you decide to do yourselves, like Mr. Oliver with 
the oils? And just a little bit of color on that from each of 
you.
    Mr. Oliver. Are you asking me if I was driven to produce 
oil because of the consumers, or how they----
    Mr. Cox. Or did you decide that the consumers might want 
this? Was it more consumer-driven, or was it something that you 
came up with on your own?
    Mr. Oliver. Yes, sir. When we tasted it, we knew it 
couldn't be burned in a tractor motor. It was too good for use 
for that, so pretty quickly we went to some local events, 
Growing Local conference, and right there I just made 
connections, let people taste it. I had about 20 bottles of oil 
and I sold them, and I knew right then just the reaction.
    Mr. Cox. Ms. Sibilly-Brown, anything out of the Virgin 
Islands?
    Ms. Sibilly-Brown. I would venture to say that most of the 
products are consumer-driven. One of our--and seasonal. It is 
based on the cultural practice, consumer-driven, and what is 
available seasonally.
    Mr. Cox. Mr. Erickson, you mentioned that your operation 
sells produce to local restaurants and regional chains, HEB and 
Kroger. And so, that is interesting. That is kind of another, I 
want to say step up, but what is the relationship between the 
local direct sales to the individuals that come to farmers' 
markets and selling to those types of retailers?
    Mr. Erickson. For us, working with the local community, 
selling to local restaurants, participating in local food fairs 
such as we have a south Texas 1015 onion festival that we 
participate in. Any time we do something local like that: 
first, we see it as an opportunity to invest and connect with 
the local community; but second, that is a consumer. That is a 
potential customer for us who goes to the grocery store and 
sees our Little Bear label and says, ``Oh, I met those folks. I 
saw them at the onion festival,'' or ``I saw them at the school 
fair when they donated the salad bar or whatever it is.''
    Every time we connect with somebody at the local level, 
that is a potential customer who we hope then goes to the 
store, sees our label, talks to their family, and spreads the 
word in that way.
    Mr. Cox. And then, I guess, I can imagine that you all sell 
to local restaurants? I would be interested, how do you 
cultivate those types of relationships?
    Mr. Erickson. By going to the restaurants. We have a lot of 
foodies at our operation. I am one of them. We are very 
passionate about food, cooking, about connecting fruits and 
vegetables to people. Those are really personal relationships 
that, when you go to a restaurant and you start to visit with 
the manager or the chef at the restaurant, you let them know, 
``Hey, we are J&D Produce, we are Little Bear brand.'' ``Oh 
yes, we know your product. Do you guys have shishitos in 
season?'' ``Yes, we have shishitos in season.''
    It is an organically-grown relationship, I would say, just 
because we and the people who work at our operation like to go 
out to eat. You talk about the company you work for, and then 
the next thing you know, you are selling shishitos or arugula 
or kale or whatever it may be, and they are proudly putting 
that on their menus as well, Little Bear, proudly featuring 
Little Bear brand locally grown.
    Mr. Cox. Fair enough.
    It is unfortunate we are only limited 5 minutes of time, 
because we could have longer conversation about it, because it 
is just fantastic the way they have grown.
    But I did want to hit on what you were talking about, which 
is farm labor, and the lack of labor and the labor supply out 
there: the Farm Worker Modernization Act, which was passed by 
the House this year.
    Mr. Erickson. Yes, sir.
    Mr. Cox. And will that be beneficial to your operation?
    Mr. Erickson. Yes, thank you so much for the question.
    Absolutely we are, as an industry, as a business, we are 
now going to use H-2A for the first time in our company's 
history. It is incredibly expensive, incredibly burdensome. We 
have been waiting 34 years--this industry has been waiting 34 
years for help on immigration or ag labor issues and reform. We 
are supportive of it. Yes, it needs a lot of work. We hope the 
Senate can make some changes and then it can come back. There 
are some changes for sure that need to be done, but we have to 
get this done because U.S. fruit and vegetable specialty crop 
growers, there is no doubt we are being put of business and 
squeezed and imports are on the rise dramatically.
    Mr. Cox. I think we are out of time, but please talk to 
your local Senator.
    Mr. Erickson. Thank you, sir.
    Ms. Pingree. Ranking Member Dunn.
    Mr. Dunn. Thank you very much, Madam Chair, and thank all 
the witnesses for coming here today and sharing your insights 
of your businesses.
    Mr. Erickson, I bet when most people are thinking about a 
local farm, they are not thinking about a 2,000 acre grower/
shipper/packer operation in south Texas, but it is clear that 
your participation in local agriculture has solidified 
relationships for you at home and with your customers.
    Can you walk us through some of the details about how you 
enter local marketing channels?
    Mr. Erickson. As I mentioned before, that it is very 
organic. We sign up for a lot of local food events. We work 
with the local restaurants. We develop and cultivate 
relationships with the local restaurants. There is an event 
held by the livestock show. It is a fruit and vegetable judging 
competition. We work with the FFA kids and the 4-H kids. We 
open our farm to those kids to come out. They harvest certain 
products. All the different commodities, there has to be 50 
different items at the show, and the kids harvest it and they 
are judged just like a livestock show would go. But the bunches 
of cilantro are laid out and the growers or buyers of that 
product will come out and judge the kids.
    All those opportunities are ways to connect with local 
folks.
    Mr. Dunn. Thank you for engaging the 4-H and FFA kids like 
that. I think that is a great thing to do.
    I also want to ask you about, we have jurisdiction over 
pesticides in this Committee, and that is an issue that gets 
pretty overheated in discussions sometimes. But local 
agriculture provides a great opportunity for you to establish 
dialogues with customers about use. I and many of my colleagues 
are interested in increasing agricultural literacy among the 
consumers, and identifying ways to build trust between the 
consumers and the producers.
    Have you seen that opportunity in your business?
    Mr. Erickson. A week doesn't go by where I am answering a 
question or questions about our pesticide use, fertilizer 
usage. A lot of that comes through social media. We get 
questions from customers all over the country, and also out of 
Canada. We sell in the U.S. and we sell products in Canada. We 
get a lot of questions, but you know, it is about focusing on 
the aspects of sustainability. There is nobody else than a 
farmer who wants to be able to sustain the land and take care 
of the land, following labels, adhering to the labels that are 
necessary, making sure you are meeting your requirements as far 
as pre-harvest intervals.
    I have a lot of conversations with folks. That is something 
I think we have a responsibility to do, to talk about the 
importance of pesticides, how they are a benefit, in a way, and 
you use less fuel by doing a better job of applying and using 
new technology, spot applications and GPS technology.
    Yes, it is an ongoing conversation day-to-day. We have that 
in our local community. We get it through social media, and it 
is a drum you have to beat, but there is a lot of 
misinformation, obviously, out there.
    Mr. Dunn. Thank you for that. Can you give us a sense of 
how much of your production goes to local versus wholesale 
commercial distribution?
    Mr. Erickson. Local being defined as staying in the State 
of Texas?
    Mr. Dunn. Local, yes, sort of stay in the region.
    I guess what I would say, direct marketing to the 
restaurants, the farmers' markets.
    Mr. Erickson. I would say it is a pretty small percent if 
you are talking about direct marketing to restaurants. Direct 
marketing to regional retailers like HEB who they are only in 
Texas, the regional retailers, they are probably 30, 40 percent 
of our business, I would say. Direct to local businesses in the 
Rio Grande Valley and local consumers who love our brand and 
say, ``Hey, I want to come by the shed and buy a box of produce 
from you directly,'' logistically, that is a pain in the butt, 
to be honest, but it is a very small margin that we sell to 
direct locally within the----
    Mr. Dunn. All right. I just wanted to get a sense of that.
    On closing, I would like to reinforce your comments on the 
ag workers. We got to find a way to do guestworkers. It is a 
shame that--I didn't know it was 34 years of problems, but it 
certainly has been a problem ever since I have been here, and I 
promise you we think about it all the time. I don't think we 
have an answer just yet, but we will take your input.
    Thank you very much. I yield back.
    Ms. Pingree. Thank you very much, Mr. Ranking Member.
    Mr. Delgado of New York.
    Mr. Delgado. Thank you, Madam Chair, and thank you, to all 
the individual witnesses today for your very illuminating 
testimony.
    Now, I represent upstate New York, Hudson Valley, Catskills 
area, the eighth most rural seat in the country. We have about 
5,000 farms in the district, 97 percent of which are family-
owned farms. And they are small, real small family-owned farms. 
We don't have big ag. We don't have corporate-based ag. We have 
about 163 towns that make up my district, covering 8,000\2\ 
miles, and a collection of these farms on a very small scale 
that represent the backbone and preserve the rural quality of 
life. And to be frank with you, they are under siege, given 
some of the national trends around consolidation and the focus 
on big ag at times that is pushing a lot of the small farmers, 
particularly dairy farmers, to the brink.
    And what I have tried to do, working with folks back home, 
is think about the ways in which we can create localized 
ecosystems, self-sustaining ecosystems that reinforce what 
these farmers do for our community at home. And that really 
boils down to increasing the market share. Whether that is 
access to schools, access to small businesses, access to 
hospitals, access to military bases, whatever the case might 
be, what are we doing through these types of funding programs 
that allow us to build a marketplace that is more localized and 
self-sustaining?
    This testimony, to me, and particularly the testimony of 
Ms. Zeman, your testimony I thought was incredibly spot on for 
my thinking through this process.
    And so, I am curious when you think about the different 
ways in which these programs have facilitated--and you are 
really smart in illuminating the different dynamics, but you 
also highlight a couple things that I want to just piggyback 
off of.
    You said that local and regional food systems are typically 
carried out by smaller, and in some cases, under-resourced 
community organizations. These organizations know the 
communities in which they are embedded and should be integral 
to local and regional food and farm system development. I 
totally agree with that. You said to do their job well, they 
need more technical assistance than they are currently 
receiving, both for grant application, development, and 
carrying out grant requirements successfully.
    My first question is on that. When you say technical 
assistance, are you talking about bodies-on-the-ground? Are you 
talking about agents from the various departments here in D.C., 
or specifically something else?
    And then the other question is we can do more through 
technical assistance from USDA to help all FMPP and LAMP VAPG 
grant recipients to apply for grants and deliver successfully 
to these grants the deliverables on the ground. I guess it is 
kind of the same kind of question, but what specifically, when 
you think about the localized infrastructure, can we be 
building out to help facilitate these programs and get the 
deliverables that we desire?
    Ms. Zeman. Thank you for the question.
    I worked on a bull stud up in upper New York a few decades 
ago, so I know upstate New York a wee bit.
    Mr. Delgado. Excellent.
    Ms. Zeman. And I was a judge for the Value-Added Producer 
Grants several years ago. And of course, we are one of those 
under-resourced organizations that try to get grants.
    The grant application process itself is formidable. I 
mentor a fair number of young farmers organizations even in 
upstate Minnesota, upper northern Minnesota. All college grads, 
wonderfully talented people, and they are struggling just to 
figure out how to get the DUNS number, how to get the SAM, all 
of that. And then if you don't renew your password every month, 
then the system blows up on you and it takes you a few more 
months to get back in the system. The process itself to get the 
money is formidable.
    Think about people that do not have access to it. Think of 
people that don't have good rural internet access. It works 
good for people who have resources, but what about the people 
who don't, right? And sometimes we often say everybody has a 
seat at the table. Not if you don't know where the table is, 
right, so that is where I think that we need to do much better 
outreach.
    I am guessing in New York, in rural New York as in rural 
Minnesota, our infrastructure that used to exist to do good 
local food no longer exists, and so we are trying to rebuild 
that. We need more meat processing plants.
    Mr. Delgado. Yes.
    Ms. Zeman. We need more community food hubs. We need more 
community commercial kitchens. If we could have a community 
commercial kitchen in every town so that it allows the people 
that are indigenous to those communities bring up their 
cultural foods and grow those and serve those.
    The one question about does the consumer lead the products 
in farmers' markets or does the--a lot of times, our vendors 
are the consumers. They have a product that they love and they 
then sell it at the market.
    It is, for us, what I have seen in my experience, it takes 
a savvy person in order to get these applications through the 
door, and then to get all of their evaluations done correctly, 
and that is not always easy, right, for people that don't have 
access.
    Mr. Delgado. I mean, I wish that I could keep going, but I 
really appreciate that and the rural broadband piece is 
critically important as well.
    So, thank you very much.
    Ms. Zeman. Thank you.
    Ms. Pingree. Thank you very much.
    Mr. LaMalfa from California.
    Mr. LaMalfa. Thank you, Ms. Pingree. I just appreciate the 
panelists being here. Obviously, the local markets and the 
ability to touch your consumers as close to home as possible 
has great value and certainly is something very loved by the 
communities.
    I am a farmer myself. I grow rice in California, which 
doesn't quite have the same interface since it is a milled 
product and little more remote in that sense, but we sure get 
that. We have our own California Grown Program. You have a 
Georgia Grown.
    I also want to touch on a couple things here. Mr. Dunn and 
Mr. Erickson talking about ag labor, and well, do we have a 
bill for you. H.R. 5038 passed the House, and it is over in the 
Senate, so talk to your Senators, please, on that. It was kind 
of bipartisan in the process there. We worked really hard on 
that legislation in order to have a legal workforce in the 
country, one that has certified ag workers, and kind of get 
beyond this mess where we are in this gray area. And it is 
going to better for the growers, it is going to be better for 
the workers. But I digress on that.
    Let me get into a couple questions here quickly, and 
expound upon what you have been able to speak of here.
    First, Mr. Oliver, the work you are doing in those oils is 
pretty great stuff, there are a lot of essential oils working 
on in my area in California, so it is an exciting area and I 
like to see how you have taken the bull by the horns on that. 
Especially since you lost your father in 2008, that is a tough 
year. Got to be extremely tough. I lost my dad that year, too, 
so a hard deal. But I am glad to see you are doing so well, and 
we want to be a good--through the farm bill and through the 
opportunities in that, how folks like you continue to do what 
you are, and the vision you have.
    Would you talk a little bit more about the VAPG and its 
components of kind of shifting somewhat from the farm bill from 
the local farmers' markets, two different aspects and being 
consolidated into that? You feel like that has worked pretty 
well for you, then, in its broadness, is that fair?
    Mr. Oliver. The Value-Added Producer Grant worked for me, 
and it is really easy to get bogged down and get lost in what 
belongs where, and the acronyms for things are confusing. I was 
very fortunate to partner with someone who is in the mix with 
the legalese and explained things for me much better than I was 
able to understand on my own.
    Mr. LaMalfa. You did mention that, that the paperwork 
stream and the acronyms and all that has been a pretty big turn 
off. Do you think you lost opportunities, or others have maybe 
lost opportunities, because of being bound up by that and the 
legal aspects?
    Mr. Oliver. Absolutely. I mean, I almost felt like it was 
to weed people out because it is so daunting.
    Mr. LaMalfa. Yes, and so we in Washington have been trying 
to get less Washington in things and more local here in some of 
our efforts at the Interior and Agriculture to push some of the 
people that work out of D.C. into the more local areas. We hope 
this has a positive effect on accessibility to people, and 
having people live where the work is and learn firsthand 
instead of 3,000 miles away in a marble wonderland here.
    You would like us to continue to streamline that for you, 
and you have gone through it, but for others, and I see a lot 
of heads nodding on that. That is something we need to take 
care of to get out there.
    Mr. Oliver. Yes, sir. Thank you.
    Mr. LaMalfa. Okay. Mr. Erickson, again, you talked about 
local labor, local food. You talked about H-2A visas. Do you 
want to expand on that a little bit, since we are pushing the 
ag labor thing pretty hard here?
    Mr. Erickson. We need help. We need help.
    Mr. LaMalfa. Yes.
    Mr. Erickson. We are getting beat up. I mentioned it has 
been 34 years since any immigration reform has passed. We need 
an ag labor solution. I appreciate what has come out of the 
House. We have been talking to our Senators. We are pressing 
hard with our groups. We just had a fly-in last week with 
producers from across the country of specialty crops working on 
the Senators.
    If you look at the import volumes coming into this country 
through our Texas ports-of-entry, they have increased by almost 
120 percent in the last 6 to 7 years. That is displacing 
American agriculture, and American agriculture is having to 
turn towards imports to rely on filling those gaps, and a lot 
of it is because of the labor challenge.
    Mr. LaMalfa. Which is ridiculous, because we can grow it 
here better, more responsibly.
    Mr. Erickson. Absolutely.
    Mr. LaMalfa. When we look at the stuff going on in China 
right now, I mean, who wants that lack of confidence?
    Mr. Erickson. Absolutely. Honestly, sir, I look at it as a 
national security issue because at some point, so much of our 
product is going to be out-sourced and imported that we are not 
going to be able to feed ourselves healthy and nutritious 
fruits and vegetables, and this is self-inflicted, in my 
opinion.
    Mr. LaMalfa. Do you want to remain in H-2As, or do you want 
to expand it into another style of ag labor?
    Mr. Erickson. H-2A is awful. I would like to--I mean, it is 
what we have. It is what we have. They are making some changes 
to it. I would like to see a more streamlined program, 
absolutely, something that is more affordable and easier to 
use. It is a nightmare of regulatory work and requirements, and 
the cost is exorbitant. It is not a sustainable situation with 
the current H-2A situation. It is not sustainable.
    Mr. LaMalfa. In our work in the bill, we had people that 
wanted us to just not screw it up more.
    Mr. Erickson. We need to improve it.
    Mr. LaMalfa. The devil they know, see if we can refine it a 
little bit.
    Mr. Erickson. We need to refine it.
    Mr. LaMalfa. But a lot more refining.
    Mr. Erickson. We will refine it in the Senate. We will 
bring it back to you guys, and we are going to come up with 
something great. This has to be it. This has got to be it.
    Mr. LaMalfa. I appreciate your optimism, and please keep 
hanging in there or keep telling us and those guys over there 
what you need. Thank you.
    Mr. Erickson. Yes, sir. Thank you.
    Mr. LaMalfa. Thank you. I yield back.

  OPENING STATEMENT OF HON. STACEY E. PLASKETT, A DELEGATE IN 
                  CONGRESS FROM VIRGIN ISLANDS

    The Chair [presiding.] Thank you, and thank you to my 
colleague, Ms. Pingree, for taking over for me while I was 
absent. When the White House calls you--I was telling Mr. Dunn, 
you can't tell them I got to go. I got a hearing right now. I 
thank you all for taking this up.
    Voice. I like your hat.
    The Chair. You like my hat? Thank you. These kinds of 
things are important.
    And thank you, Sommer, for being here. I am really 
appreciative of you making your way up and being a part of this 
hearing.
    At this time, I recognize Congresswoman Pingree for 5 
minutes.
    Ms. Pingree. Thank you very much, Madam Chair. Thank you 
for allowing me the privilege of sitting in the Chair for a 
little while and take over, and really thank you so much. You 
have been a wonderful group and you can see the Committee, each 
person has said they wish they had a little more time to talk 
to you. Thank you for that.
    I am particularly excited to have this hearing, and I thank 
the Chairwoman for hosting it. I was able to lead a bill called 
the Local Farms Act during the reauthorization of the last farm 
bill, which contained the provision that consolidated the few 
local programs at the USDA, and that is where we got LAMP. For 
me to hear all of you talk about the Local Agriculture Market 
Program and how it has come together is very exciting. These 
are all programs that are really near and dear to my heart. 
Unfortunately, the President's budget just came out and it 
provided no funding for LAMP programs, but I am also on 
Agriculture Appropriations Subcommittee and I feel confident 
that we will, in a very bipartisan way, make sure that these 
are funded again. They have $50 million in mandatory funding. 
Last year, we were able to add an extra $20 million, so I hope 
we can keep it at the $70 million level. And you are all 
wonderful at speaking to how important this is.
    I know these programs very well. I come from the State of 
Maine where we have an awful lot of small farmers and we have 
seen a lot of growth in value-added farming operations. So much 
of what you are talking about has really built back our 
agriculture operations in Maine. Huge interest in local foods 
and organically grown foods, and everything. These programs, as 
you said, really help people to support in that. And I take to 
heart some of the things that you are speaking about. 
Unfortunately, I have heard them many times about how 
complicated the forms are. You shouldn't need extra assistance, 
and I take your point about the taxable income, and we will 
certainly get to work on some of the things that you have said.
    I just want to make a couple comments about all of you, 
because you are so great, and thank you. Ms. Sibilly-Brown, I 
have had the good fortune to visit the Virgin Islands, and I 
know how challenging it is not to have more sources of local 
foods, and I would love to work with the Chair on something 
that really makes it more equitable for the territories. It is 
ridiculously unfair, given the challenges that you have there, 
and in the other territories. I wish we could restructure some 
of that.
    Thank you to Ms. Zeman. I mentioned to her that my family 
farmed for decades in Kenyon, Minnesota, so we are right next 
door to your wonderful town, and consider you a former neighbor 
of my family, and it is really great to hear your stories. And 
again, of how some of these value-added products come about 
from your dryer balls to soap.
    And of course, your story, Mr. Oliver. I can't wait to try 
the oils. I am really excited to hear how enthusiastic you are 
about it and how your family turned such a sad challenge into a 
really productive industry. I think we should see a lot more of 
what you are doing with cold-pressed oils.
    And to Mr. Erickson, I thought it was wonderful to hear a 
Texas farmer talk about shishitos and arugula, because that 
just doesn't happen.
    Mr. Erickson. Two of my favorites.
    Ms. Pingree. Yes, and I run a small vegetable operation, 
and so I know very well about the customers' interests in these 
things, and also some of the challenges that you spoke about. 
My two friends from California here will talk more about 
agricultural labor, because that is something that we hear 
about from farmers everywhere.
    But, the one thing I wanted to mention, not only is your 
pride in your local industry and really emphatically reminding 
us how important it is to support American farmers, and how 
imbalanced we have gotten with imports and with our trade 
agreements, and just not understanding how important it is to 
have that capacity here in the United States.
    But, I also think a business like yours, talking about 
being able to aggregate the produce of other farmers is really 
important, because as one of my colleagues mentioned, not 
everybody can market directly to a consumer or do they want to. 
And so, having someone like you who can help to aggregate some 
of that with other farmers seems really important.
    I just wanted to, I have used up most of my time, of 
course; but, again, I wanted to thank you, and if anyone else 
wants to talk about any of the other challenges that haven't 
come up, we are ready to go to work for you and really continue 
to enhance and increase the funding for these programs.
    So, go ahead.
    Mr. Erickson. If I may, ma'am, thank you for the comments, 
and it is so important that we are able to work with other 
local producers. We have been fortunate and a lot of it is 
luck, and it is hard work, and it is timing. But we are so 
passionate about our local community and the growers in our 
region. It is in our interest to see them succeed, and those 
relationships that we have are incredible, and they are an 
important part of our business operation, and we can provide 
them with assistance.
    I hear the challenges from my fellow testimony folks up 
here, but I am familiar with those, and from the private side, 
we are able to help with local producers as well, helping them 
navigate the food safety law. We have a staff of 15 food safety 
food people now. It is crazy: a couple of managers, a director, 
techs, sanitation people. But, they are able to go out and help 
consult with the producers that we are picking up that are 
helping us grow our own operation. We farm a lot of our own, 
but we also bring in products from other growers, and we can 
help with a lot of different aspects, regulatory, financing, 
marketing, harvesting, and from that respect as well.
    We are from a private-sector side, we are a form of helping 
grow local agriculture. That is really important to us.
    Ms. Pingree. Well, thank you. I have completely run out of 
time, so I disingenuously asked you others for comments, but 
you have done a great job today speaking to all of the concerns 
that you have, and that was one topic that didn't come up, but 
I know firsthand from my own operation that complying with the 
new rules of FSMA and being ahead of that is really hard for a 
small farmer, so that is a great service that you are providing 
to others.
    Mr. Erickson. Thank you.
    Ms. Pingree. Thank you for that. Thank you to everybody who 
testified. We look forward to trying to solve some of the 
problems that you brought up.
    The Chair. Thank you, and at this time, we will hear from 
the Ranking Member, Mr. Conaway.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Thank you, Madam Chair. I apologize, and I 
want to thank the panel for being here. Somebody covered this 
in your opening remarks, but one of the issues facing 
particularly fruits and vegetables is with respect to food 
waste. Bret, I suspect that not everything you grow is suitable 
for HEB shelves, and what is going on in the valley to take 
advantage of getting food and fruits and vegetables that aren't 
ready for HEB to not be wasted and put back into----
    Mr. Erickson. Well, first thing I would like to say on that 
subject is retailers should do a better job of helping to 
market imperfect produce, because it tastes the same. It is 
just as healthy and nutritious. But those things that don't 
meet the eye test to sit on a grocery retail shelf, we work 
with local food banks, we work with an organization called 
Brighter Bites, which they source product to get to 
underprivileged kids. We work with local schools and different 
programs locally to source that product out to those folks as 
much as we possibly can. Those would be the primary outlets.
    Mr. Conaway. My daughter lives in Fort Worth, and they have 
a program where she can buy ugly fruits and vegetables. It is 
actually an internet-based thing where they deliver it to her 
house and it comes in a sack. It just comes up as what is 
available for the day. She picks whatever she wants, and they 
show up and it is eight carrots and one guava, whatever. But do 
you have that access to those kinds of programs in the valley?
    Mr. Erickson. We have something similar. We work with a 
company called--I think it is called Imperfect Produce, but I 
could be mistaken. But that is their whole business model. It 
could be the company that your daughter is getting product 
from, but they specialize--they are signed up and as a buyer 
just like HEB or something, they would be a customer of ours 
and they are looking for those imperfect items, and that is 
their business model. We do sell to companies like that, and it 
is at a discount, it is a discounted price. But God bless them 
for what they are trying to do.
    But you see in the retail community, there is more and more 
programs where big retailers are also trying to capture this 
food waste movement and sell imperfect produce.
    Mr. Conaway. Based on your efforts, how much of it is left 
to be done in terms of getting things that are grown and all 
the inputs that you have and all the money invested in an 
imperfect apple or whatever, what percentage of your production 
is still not making into stomachs?
    Mr. Erickson. Oh, ten percent maybe.
    Mr. Conaway. And how much further we need to do--how much 
more effort is necessary, because you got to----
    Mr. Erickson. Well, I would say an educated guess, maybe 
ten percent of our product is going--10 to 15 percent, perhaps. 
That is quite a bit.
    Mr. Conaway. Right.
    Mr. Erickson. I would say that there should be a lot more 
focus on imperfect produce and I think that the private-sector 
is capturing on that. It is definitely growing in popularity. I 
see it in the trade press and I see it in the retail aisles. 
But it does need to continue to grow because it--whether it is 
ugly or whether it is beautiful, it takes the same amount of 
effort and cost and input to grow that product, and there is 
absolutely zero things wrong with it, other than the way it may 
look on the exterior. But the nutritional benefits and the 
taste and the flavor, it is all there, sir.
    Mr. Conaway. Sure. Thank you for the efforts, and Madam 
Chair, thank you for the hearing. I yield back.
    The Chair. Thank you. Mr. Panetta, you are next. I was told 
to give you a hard time, but I am not going to do that.
    Mr. Panetta. What else is new? Thank you, Chair Plaskett.
    Mr. Conaway. I will, Madam Chair, if you would to pass that 
over to----
    The Chair. Oh.
    Mr. Conaway. If he says Salad Bowl of the Nation, I am 
going to----
    Mr. Panetta. Salad Bowl----
    The Chair. That is his tag line.
    Mr. Panetta. You are close.
    Good morning. I am Jimmy Panetta. I am from the Salad Bowl 
of the World. I mean, let's get that straight. One of these 
days they will learn.
    Chair Plaskett, Ranking Member Dunn, Ranking Member, thank 
you very much for this opportunity to have this type of hearing 
on something that is important, not just to my community on the 
Central Coast of California, but clearly to the United States 
and our agriculture industry. Thank you very much.
    In my district on the Central Coast of California, because 
we have so many fruits and vegetables, we have about 15 
farmers' markets that participate in the Supplemental Nutrition 
Assistance Program, as well as WIC, the Women, Infants, and 
Children Supplemental Program. And obviously, these types of 
programs are very, very beneficial for all people, but mostly 
for the food-insecure families that exist in my district. I 
mean, we have a lot of people who work in the fields who are 
around fruits and vegetables every day, but unfortunately, they 
go home and they don't necessarily--those aren't on--the 
products that they are picking are not necessarily on their 
table for them to eat, and neither for their children to eat as 
well.
    But fortunately, we do have a lot of programs--this is one 
of them--and we have programs in our schools as well to get 
their children involved in it, too.
    But obviously, when it comes to farmers' markets and 
providing the type of assistance necessary to help food-
insecure families access and have these types of fruits and 
vegetables, the technical assistance and the resources are 
necessary. And so, I had the great opportunity to have dinner 
with Gus Schumacher back in 2016 when I was running for this 
position. I went to his house here in Georgetown, and we had a 
nice dinner with a couple of our other agriculture advocates. 
And I will never forget how important it was to him that--and I 
told him, obviously, I had been to farmers' markets--but I 
remember. I will never forget his words of advice of get out to 
farmers' markets as much as you can. Just walk through them. 
``Just be there, be present. It means a lot to the people who 
are working there, and a lot to the customers as well.''
    Obviously, I do believe in farmers' markets. I believe in 
the words of Gus, but obviously, there are other things that 
can go into helping the farmers' markets get to our food-
insecure families. The Electronic Benefit Transfer, the EBTs.
    Now, I know, Ms. Zeman, you talked about that. Can you 
elaborate a little bit more on the challenges that people have 
in dealing at farmers' markets with some of these benefits that 
help provide these types of resources, especially when it comes 
to the EBT?
    Ms. Zeman. In Minnesota, we know that--thank you for the 
question. In Minnesota, we know that about \2/3\ of our markets 
have volunteer market managers. The market itself does not make 
enough money to pay a manager, and yet, great local community 
development, right? When you bring SNAP in, then it costs the 
market on average about $1,500. Now, we are gathering money, 
resources out of the community that could be going to other 
places just to get the machine in, get all the swiping in.
    We have some markets that have seven different colored 
tokens. There is an app for everything, right, so could we get 
an app that if I am the farmer and I have SNAP-eligible 
products, can't you just come up and swipe just with me? 
Otherwise right now, we have the information, we have the 
machines, we got all the color-coded tokens. And then people 
come up and now that there are a lot of different tokens, it is 
not such--sometimes it was embarrassing if you were the only 
one getting SNAP, but now there is SNAP and there is power 
produce and there are debit cards and there are credit cards, 
and then there is the medical industries coming in with some 
benefits, too. It gets to be a big management, and then you 
have to manage all of that so you can measure, right what you 
are doing. It is a financial burden on the markets. It is 
wonderful for the SNAP participants. It is wonderful for our 
produce farmers, right, and all of the farmers that produce 
those products. But it is a huge burden for the market itself. 
If we could remove that burden, if we could just come in with 
that support, those resources, then you would have that all.
    And I agree with you, the first time that we did the good 
food access in Minnesota, the American Heart Association found 
us, and I am like how did you find farmers' markets, and she 
responded, ``Because your farmers are on SNAP.'' And how sad is 
that, right, that we produce the food and yet we have farmers 
on SNAP? That is not fair and it is not right.
    Mr. Panetta. Understood, understood.
    And I guess also in regards to Mr. Schumacher, obviously he 
has a Nutrition Incentive Program. Can you walk us through how 
that works real quick, in the 14 seconds that I left you to do 
that?
    Ms. Zeman. Well, in Minnesota, we have our own Market 
Bucks, so it is just a dollar for dollar match, and I am 
guessing that is what Gus Schumacher--that was for the FINI 
program, right, so I am not as knowledgeable on that program as 
what we do in Minnesota.
    Mr. Panetta. Fair enough. Great. Thank you again to all of 
you for being here. Thank you, Madam Chair.
    The Chair. Thank you. Ma'am, if you could just elaborate, 
the Ranking Member and I had a question with regard to the 
small farmers and utilization. Do those same cards allow you to 
use Square or some of the other mechanisms with food stamps?
    Ms. Zeman. We can--sorry, thank you. We can use Square for 
our debit and credit card, but we can't for SNAP, because you 
have to have----
    The Chair. The SNAP cards cannot be used for that?
    Ms. Zeman. Correct.
    The Chair. Okay, because we were wondering if that is 
something that we could take up with the Department of 
Agriculture.
    Ms. Zeman. And additionally, Sommer is going to have a 
comment there, too. Additionally, when WIC goes to EBT, EBT 
just means electronic benefit transfer. When WIC does, we just 
heard in Minnesota that they are going to be two non-compatible 
systems. We would have to literally now have two machines 
instead, as food programs become EBT, if they could all use the 
same software and the same machines, the card reader machines, 
that would be wonderful.
    The Chair. Okay. We are having the staff write that down 
right now, so we will look into it.
    Ms. Zeman. Oh, thank you.
    The Chair. Thank you. Mr. Carbajal, Salud.
    Mr. Carbajal. Thank you, Madam Chair, and these hearings 
are always amazing, because you hear about things that should 
work, but they don't work. And I appreciate all that we are 
hearing about, the EBT as it relates to SNAP and WIC.
    This isn't so technical that we shouldn't be able to fix 
it, this is my second term in Congress, and when I hear these 
things, I think how often does it need to be said for it to be 
fixed? I am really hopeful that this example today is one that 
we could work on to show how Congress or the Administration can 
work on small things, but that impact a lot of people. I 
appreciate my colleague raising these issues.
    I represent the Central Coast, the real Central Coast of 
California, which produces a wide range of specialty crops, 
from the fruits and vegetables Americans eat every day, 
including wine grapes and cut flowers. A significant percentage 
of farmers in my district participate in farmers' markets and 
other types of direct-to-consumer sales. In fact, in the three 
counties that I represent, there are 36 different certified 
farmers' markets. The creation of the Local Agriculture Market 
Program, LAMP, in 2018 Farm Bill was an important step forward 
in supporting this growing sector of ag industry. I am looking 
forward to continue to support this growth, despite the 
President zeroing out this program from $20 million to $0.
    Ms. Zeman, our testimony includes interesting statistics 
from markets you observed last year. Specifically, your data 
shows that 24 percent of vendors were under the age of 35; 74 
percent of businesses were women-owned; and 35 percent of 
vendors were people of color. What drivers are influencing the 
strong diversity of vendors at your farmers' markets, and how 
can we continue to support young farmers, women, and people of 
color through agricultural markets?
    Ms. Zeman. Thank you. If we could get more grants, we would 
be able to get better data on the background on that, but our 
observation would be that if you think about farmers' markets, 
it is a really low entry cost, right? You don't need to have 
2,000 acres. You don't need to inherit a bunch of land from 
your ancestors. You can get in relatively quickly. You can have 
a raised garden bed, 2 by 4, right? One acre of land can 
produce enough produce for 25 families in a CSA model.
    So, the reason that you are seeing our young people, our 
people of color, all of us that are not part of the commodity 
ag world, we get in because it is easy. It is really cheap to 
get in, and then you use your own skills and your own talents, 
right? When you are working for yourself--in farmers' market 
world, we do not worry about trade wars or tariffs. We are 
impervious to them. They don't touch us. We are hyper-local. We 
buy from each other. We grow it ourselves. You don't mind 
working 24 hours a day because it is something you love. It is 
your passion, and it is food, and it is your culture. And that 
is what farmers' markets do.
    Mr. Carbajal. Thank you. To all witnesses, many of you have 
pointed to the struggles that smaller agriculture production 
face. I have heard from farmers in my district that meeting the 
Food Safety Modernization Act compliance deadline have proven 
to be a challenge for smaller operations. The purpose of these 
requirements are to create a preventative food safety system 
that is, itself, sustaining. How are these rules impacting 
small farmers who sell directly to the public, such as at 
farmers' markets? To all of you, or any of you?
    Ms. Sibilly-Brown. Hello, morning. Sommer Sibilly-Brown.
    In the Virgin Islands where we have a large forage 
production population, so we have a lot of fruit trees, we have 
a lot of organic, and people would go and forage from their 
yards or neighboring land spaces, it presents an issue for--
like one of the Food Safety Modernization Act rules is that it 
cannot be touched by a bird, right? In forage production, that 
means iguanas, birds, lizards, all these things climb trees, so 
that would make nothing that our farmers forage eligible to be 
sold or eligible for the criteria in the Food Safety 
Modernization Act. When farmers were trained in the Virgin 
Islands, that alone, because they trained 25 farmers, was a 
barrier in terms of what would enter the market.
    Mr. Carbajal. Thank you. Anyone else?
    Ms. Zeman. In Minnesota, we have the University of 
Minnesota extension and the Minnesota Department of Agriculture 
pursued really quite aggressive education program, so we have 
about 1,800--USDA thinks we have 3,400 produce farmers--we 
think we have 1,800 or 1,900 on record right now. We made the 8 
day fire hose of training for the FSMA PSR. We made it very--
$35 gets all of our produce farmers in. We have trained a lot 
of produce farmers. To date, it is just food safety. For those 
of us who have sold meat and milk, we have dealt with 
regulations for centuries or decades maybe, not centuries. It 
is new for produce. I am not sure how much it is. When the 
water rules hit, that I am a little bit concerned about. In 
fact, I have been floating the idea in Minnesota that we might 
need to fund some--put some money out there for some of those 
water tests, because for farmers that are using surface water, 
that is going to be expensive to do those tests year-round.
    Mr. Carbajal. Thank you. Madam Chair, if you will allow me, 
since I seem to be the last one speaking, I would love to ask 
Mr. Erickson, if allowed, if he could touch on the Farm 
Workforce Modernization Act, something that attempts to address 
some of the concerns that have existed with the H-2A program, 
and some legislation that myself and many other Members here, 
Representative LaMalfa, Representative Panetta, have been a 
great part of, and I am wondering what your take is on that 
legislation that passed the House?
    The Chair. Please answer the question, but always remember, 
I always have the last word.
    Mr. Carbajal. Thank you, Madam Chair, absolutely.
    Mr. Erickson. I feel like this is a last shot for us, for a 
lot of us. That sounds maybe dramatic, but when you look at the 
numbers, walk through your retail grocery store and look at the 
shelves, look at what is on the shelves. For specialty crop 
producers in the United States, I fear that the horse is 
already out of the barn because we should have done something 
20 years ago or 15 years ago, 10 years ago, 5 years ago. This 
is it. What came out of the House, thank you to all of you who 
supported it, and yes, it is not perfect. We are not going to 
get perfect. We know we are not going to get perfect, because 
all the sides want different things. But we have to have 
compromise on this. We have to have compromise. We are working 
hard on our folks in the Senate. We know it can be improved. 
There are areas for improvement. Let's get it out of the 
Senate. We are telling them get it out of the Senate, and we 
know it won't be perfect coming out of the Senate. Let's bring 
it back and conference it. But we, as----
    Mr. Carbajal. You support it?
    Mr. Erickson. Absolutely.
    Mr. Carbajal. Thank you.
    Mr. Erickson. Let me make that--yes, absolutely. Over 250 
organizations, fruit and vegetable organizations and producer 
organizations in the United States supported it. The vast, vast 
majority of producers--the mushroom folks, the dairy folks, we 
have to get this done. We have to get this done, because we 
are--as an industry, we are being squeezed out. No doubt about 
it, we are being squeezed out and it has been happening, and it 
is happening faster. As the U.S. demand increases, it is more 
opportunity for imports, and for them to gain traction there, 
and we are being stifled. Our business, for the last 5 or 6 
years, we can't grow as much as we want to in terms of the 
business because we don't have the people to harvest the 
product. We don't have enough. That is a bottleneck.
    Mr. Carbajal. Thank you, Mr. Erickson. I don't want to be 
chastised by our Chair, but thank you for your thorough answer.
    Mr. Erickson. Thank you.
    Mr. Carbajal. And thank you, Madam Chair, for allowing me 
to ask that last question.
    The Chair. Sure, definitely. It was needed information.
    I have my 5 minutes now of questions, and the first 
question I actually have is to you, Mr. Oliver. I wanted to 
know if you could talk about value-added food processing. In 
the Virgin Islands, this is something we have been looking at 
for our smaller farmers to work as a cooperative together to 
implement value-added food processing to support some of the 
things that Sommer Sibilly-Brown talked about so that we can 
move to exporting rather than just having internal food 
production.
    Mr. Oliver. Yes, the value of the Value-Added Producer 
Grant coupled with cooperatives, it is exponential what it 
could do. We recently joined a cooperative and it has allowed 
us access to markets I wouldn't normally attend, couldn't 
physically be there, and access to new groups of people that, 
again, wouldn't be there. The grant definitely can allow the 
entrepreneurial spirit to flourish. It can give you those means 
to take the chances or processing or equipment. You can't buy 
equipment with it. Now let me back up there. You can't buy the 
equipment, but for labor or training, it will definitely give 
you the funds to support that. And you know, my mind was racing 
like wow, what kind of oil could I press from things down there 
in the Virgin Islands?
    The Chair. A lot.
    Ms. Sibilly-Brown. We will talk.
    Mr. Oliver. And that is an opportunity, maybe oil 
processing from native plants and seeds down there.
    The Chair. Thank you. That is really interesting.
    Ms. Zeman, I wanted to ask you, some of your work has been 
involved--although you are working in a rural area, working 
with urban areas. I think about the fact that my home here in 
D.C., I can be in this area here on Capitol Hill where there is 
a wealth of food, and then as soon as I cross the Anacostia 
Bridge to where my home is, I enter a food desert. And the same 
way even on a small island like on the island that I live on, 
St. Croix, with so much food around, housing communities like 
Aureo Diaz Heights, and others are in food deserts.
    Can you talk to me a little bit about how your work with 
farmers plays in serving these under-served minority 
communities or other communities?
    Ms. Zeman. We do. Interestingly, a lot of those folks in 
those are doing a lot of their work themselves. Like Appetite 
for Change, I just recently figured out that we were only doing 
education on youth produce. It used to be in 4-H and FFA. No 
longer. Appetite for Change, Urban Minneapolis Ag is doing it 
for their kids, right, and they just did this wonderful rap 
song. It is all over Facebook. It has been viral.
    It is education. It is also figuring out how to get them 
resources to do that value-added. To the point about the 
imperfect produce, not everything is perfect, right, but what 
if we could get commercial kitchens in that people could 
access, and then take up the dinged up tomato and pepper and 
make it into salsa?
    In Minnesota we have a fairly progressive Cottage Food Law 
that allows people to do only food safety, so only the non-
potentially hazardous foods, but you can make it in your home 
kitchen as long as you follow certain food safety requirements, 
and then you can--so, you can grow your--all your own. You can 
sell the good stuff at your farmers' markets or locally, take 
the imperfect, and make those into a value-added product. The 
same person, all of that. And it can be youth. It doesn't have 
to be just adults.
    It takes a village to get all of that done. There is a lot 
of pieces, but we have some pretty smart people in Minneapolis 
and St. Paul pursuing that.
    The Chair. Thank you.
    Ms. Zeman. We are actually coming in under. They are taking 
the lead.
    The Chair. Thank you, and I say that also in the Virgin 
Islands, like we cannot compete with Guatemala for mangos, but 
we could compete on mango chutneys or jams or preserves or 
things like that.
    Sommer, I wanted to ask you, you mentioned the possibility 
of farmers working with local hotels and cruise lines. I know 
that my colleague, Mr. Cox, talked a little about it. What is 
the current relationship between agriculture industry and 
tourism, and how can we strengthen that relationship?
    Ms. Sibilly-Brown. The current relationship between ag and 
tourism in the Virgin Islands is actually broken. At one point 
they were under the same umbrella. It used to be the Department 
of Tourism and Agriculture, and they were working to increase 
that as agritourism is now a reality.
    I have had the benefit of speaking to, like, cruise lines 
and what they are looking for is increased production, but also 
a barrier is crop insurance. There is an entry point that the 
Department of Tourism could actually make happen if we could 
get over the hurdle of aggregation and crop insurance. Having 
farmers produce cooperatively, store that food, and then 
consistently provide it for the cruise ships.
    That relationship can build if we have some investments in 
the infrastructure.
    The Chair. And then one of the things we always talk about 
back home is the expensive imports, and how does that impact 
local farmers dealing with the cost of importing things?
    Ms. Sibilly-Brown. That impacts us tremendously because 
everything we need to grow food has to be imported. We are 
talking about--we don't have any seed banks, so we are talking 
from the seed to the packaging boxes. Farmers have to import 
those because we don't have packaging plants. Heavy equipment 
services like organic certification or audits are all imported, 
so it dramatically--food that could be cheaper becomes more 
expensive because the level of individual input the farmer has 
to put in, that will only level up if we can get our production 
to meet a certain scale. Right now, farmers are doing these 
things together.
    We are in the perpetual chicken and egg where farmers 
trying to produce food locally have to exert so much without 
enough inputs, then the product becomes more expensive. We are 
a socially disadvantaged area, so then we don't have many 
people who can afford to buy that product, and the SNAP and EBT 
benefits become a challenge because our farmers don't have the 
individual infrastructure to actually benefit from it.
    Where there are all these answers that are available, our 
true issue is how do we build a unique place-based 
infrastructure for a small territory like the Virgin Islands, 
and I would venture to say, American Samoa, Guam, and the 
Northern Mariana are sharing the same issues, as many rural 
places might be as well.
    The Chair. Thank you.
    I want to give some time to my good friend, Mr. Davis.
    Mr. Davis. Thank you, Madam Chair, Mr. Ranking Member. I 
apologize for being late. I had a hearing right down the hall 
on the Voting Rights Act Reauthorization, so that is another 
committee I am on, but it is very important what many of you 
testified on today. And during the 2018 Farm Bill negotiations 
and that entire process, I was able to meet with many of my 
local groups to really discuss their priorities. And back home, 
I sat down with several local farmers and producers in 
conjunction with the Illinois Stewardship Alliance. I met them 
at Green Top Grocery in Bloomington, Illinois. It is a co-op 
grocery store where we discussed the benefits of the LAMP 
Program. And I was glad to see the program was ultimately 
included in the bill that we passed in a bipartisan basis.
    Ms. Zeman, I appreciate your constructive feedback 
regarding the ways in which the LAMP Program can be improved, 
especially for these local producers who may not have all the 
tools to be successful in their applications. You proposed in 
your testimony waiving some or part of the matching requirement 
for certain organizations. Can you please describe specific 
ways in which the USDA and Congress, as we look towards the 
next farm bill, may be able to help prospective applicants be 
successful outside of waiving the matching requirement?
    Ms. Zeman. Mr. Oliver used a grant person to help. If you 
can't waive, because I would understand that might be a 
fairness and how would you figure out how to do that fairly and 
justly, if there would be money available so you could always 
pay an expert grant writer, that would help immensely. If a 
grant writer could be the one that has the numbers and the 
accounts, and then just let all of our young farmers on the 
Value-Added Producer Grant--that is a formidable process. I 
review those grants. They are 100 pages long. I can't imagine 
some farmers trying to get that done, right? If there would be 
a system where we would have expert grant writers to help just 
get the process to go through, the idea and the work is still 
on the farmer, farmers' market, or the farm side, but that 
process we could offshoot it to that. Unless you could waive 
the fee for some. That 25 percent, that is a lot of money. Like 
my association, 70 percent of our budget is grants. Only 30 
percent can we raise off membership dues, right, so we are very 
grant heavy, and we can't use other grants to be the matching 
grant, otherwise that is magic math, and a lot of that isn't 
allowed. It is really hard to come up with that, unless you are 
already a heavily-resourced agency.
    That then leaves out a lot of people, because a lot of us 
aren't heavily-resourced. And then there are the people that 
don't even know any of that, right, in other words, we are 
giving money to people that already have money, and we are 
leaving the rest of them outside.
    Mr. Davis. Well, I appreciate your responses. Instead of 
maybe waiving a matching requirement at the Federal level, 
maybe we allow for state partnerships, state programs to be 
considered in ability to match that program.
    At some point, we want to build out the prioritization of 
the Federal Government leads. We would like to see the states 
get engaged in this process, too.
    I look forward to working with you and your association, 
other associations as we move into the next farm bill.
    Mr. Oliver, you use this program, right?
    Mr. Oliver. Yes, sir.
    Mr. Davis. Do you have any comments?
    Mr. Oliver. As we have been saying, the paperwork is very 
daunting. The--being taxed on----
    Mr. Davis. The government paperwork is not just--its 
problem is not just limited to the LAMP Program.
    Mr. Oliver. Understood. Yes, sir. The fact that you get 
taxed on this, though you have made the money, and I spend my 
money for whatever I am to be reimbursed on, and then at the 
end of the year I get a paper saying there is taxable income, 
and in my case, $250,000 I spread over 3 years, but some people 
do it in a year. That is a wallop to be added to your income 
there, which just doesn't seem fair there. I would definitely 
say that could be changed.
    Mr. Davis. Okay. Well, thank you. Thank you.
    And real quick, Mr. Erickson. I am pleased to see that your 
company works with 4-H and FFA. I think they are two 
indispensable programs that help create some of our nation's 
leaders, not just in agriculture, but in government and all 
throughout our great economy.
    There are some challenges that lie ahead for both those 
organizations, and I am sure you are giving them a fantastic 
learning opportunity working with you. Can you actually tell us 
a bit more about how you are making sure these folks that 
belong to the FFA and 4-H are engaged in what you do?
    Mr. Erickson. Absolutely. Mostly it is bringing these kids 
out to the farm. We have an open-door policy with these 
organizations. We host a lot of tours with them. I mentioned 
earlier that there is a big fruit and vegetable and citrus show 
that happens down in the valley. We invite all these kids to 
come out. Our farmers teach the kids about how the product 
grows, about how to select a product in the field, how to make 
bunches, about the harvesting, about the marketing aspects. We 
recognize that these kids--these are the future leaders that 
are going to hopefully, they will be up here in Washington, 
D.C. They will be in our state legislature. They will be 
working for J&D Produce, hopefully, one of these days, doing 
director of marketing or working on accounting or sales or as a 
farm manager or whatever it may be. These kids are our future, 
and we definitely understand the need, and allocate a lot of 
time and tours, donations and training and education to these 
kids as a private organization.
    Mr. Davis. Thank you. I yield back.
    The Chair. Thank you. The Ranking Member for your closing 
remarks?
    Mr. Dunn. Thank you very much, Madam Chair.
    I just want to say that after hearing our testimony here 
today, we had a hopeful note. We may be able to help customers 
who have EBT cards or the SNAP cards. If we could connect them 
with the farmers' markets, I think that is good for them as 
well as for the farmers' market. Maybe we can find a simple 
solution there, I pray.
    I also heard again how important it is to everybody, 
farmers, foresters, and ranchers, to have a good working 
guestworker program in the ag field, and we just have to tackle 
this. We have to get this done. We can't lard it up with a 
whole bunch of things that people wish for. We just have to get 
it done for the farmers, and I hope we do.
    Thank you very much, Madam Chair. I yield back.
    The Chair. Thank you. I am reminded in that a hearing last 
year, the Subcommittee talked about some of these issues as 
well. At that time, one of the witnesses was a representative 
from the Virgin Islands, Ridge to Reef Farm on the Island of 
St. Croix. That farm, despite being impacted by multiple 
natural disasters, the territory's only organic farm has been 
able to, through local market opportunities such as Community-
Supported Agriculture Program, a farm stand, multiple farmers' 
markets, and agritourism experiences. Other farming operations 
in the Virgin Islands, if they follow suit, I believe the 
territory's farmers and ranchers can work to meet the demands 
of their communities, decrease our overall dependency on 
expensive imports, and foster innovative partnerships with 
local restaurants in our thriving tourism industry. The 
economic potential exists, but my producers need resources and 
technical assistance to successfully make these business 
decisions.
    Because of our geographic location, as you have heard from 
the USVI witness today, farmers in the Virgin Islands, similar 
to those in rural areas, struggle to receive competent and 
competitive grants for food processing. These are the many 
challenges we face every day, and I am glad we had an 
opportunity to speak on those things. The growth in value-added 
programs is a great step in the right direction. We must look 
for an equitable way to assist our farmers in growth and 
production. In our islands, the Virgin Islands, we import 90 
percent of our food. We would love to come to a place where we 
are much more sustainable and reliant on ourselves. We 
encourage farmers' markets, such as the annual Agricultural 
Fair coming up in a week, where farmers have an opportunity to 
showcase their best products. Programs like LAMP contribute to 
the growing markets.
    This is personal for me. Farmers in the Virgin Islands want 
to compete, and I thank you, our witness, Sommer Sibilly-Brown, 
for highlighting their challenges.
    I want to thank all of our witnesses for their valuable 
testimony. Mr. Erickson, Mr. Oliver, Ms. Zeman, your testimony 
is really advancing, and we have identified some areas where we 
think we can work and support you all and the work that you are 
doing. I hope that we as a Subcommittee can continue to support 
local agricultural markets, moving forward.
    At this time, this hearing stands adjourned. Members have 
10 business days to supplement or add to the record.
    [Whereupon, at 11:37 a.m., the Subcommittee was adjourned.]

                                  [all]
</pre></body></html>
